                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              April 1, 2007, to September 30, 2007
                                Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                    $ 40,654,000
         Management decision during the reporting period                                                       $ 11,515,000
Recommendations for funds to be put to better use
         Issued during the reporting period                                                                           $48,000
         Management decision during the reporting period                                                          $5,900,000

Investigative recoveries                                                                                        $714,680.66

Investigative Results:
Cases opened ............................................................................................................. 14
Cases closed ............................................................................................................... 25
Judicial actions ............................................................................................................ 34
Administrative actions................................................................................................. 10
Hotline and complaint activity ..................................................................................... 259



Reports Issued: 62

                        Picture on the front cover: Embassy Nairobi, Kenya

                 Picture provided by Office of Overseas Buildings Operations



                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Office of Inspector General
                                                    U.S. Department of State
                                                       OIG/EX, Room 810
                                                    1700 North Moore Street
                                                       Arlington, VA 22209



                                        Department of State Publication 11462
                                                Office of Inspector General
                          TABLE OF CONTENTS



EXECUTIVE SUMMARY ....................................................................................... 1
CONGRESSIONAL ACTIVITIES AND OUTREACH .......................................... 11

          DEPARTMENT OF STATE

AUDITS .............................................................................................................. 23
INSPECTIONS ................................................................................................... 37
INVESTIGATIONS............................................................................................... 61
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES.......... 67
APPENDIX 2: REPORTS ISSUED..................................................................... 69
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ..... 75
   Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ....... 77

          BROADCASTING BOARD OF GOVERNORS


INSPECTIONS .................................................................................................... 85
INVESTIGATIONS............................................................................................... 89
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE
   ACTIVITIES .................................................................................................. .91
APPENDIX 2: REPORTS ISSUED...................................................................... 93
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ...... 95
   Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ....... 97



LIST OF ABBREVIATIONS ................................................................................. 99
                       EXECUTIVE SUMMARY



The auditors, inspectors, investigators, and other professionals in the Office of
Inspector General (OIG) promote effective management, accountability, and
positive change in the Department of State (Department), the Broadcasting Board
of Governors (BBG), and the foreign affairs community. They provide leadership
to:

•     promote integrity, efficiency, effectiveness, and economy;

•     prevent and detect waste, fraud, abuse, and mismanagement;

•     identify vulnerabilities and recommend constructive solutions;

•     offer expert assistance to improve Department and BBG operations;

•    communicate timely, useful information that facilitates decision-making
     and achieves measurable gains; and

•     keep the Department, BBG, and the Congress fully and currently informed.

This report summarizes work carried out by OIG during the period April 1
through September 30, 2007, which included the issuance of 62 reports of audits,
inspections, and other reviews with recommendations to improve Department and
BBG programs and operations. A full list of reports issued by OIG during this
period can be found in the Appendix 2 of each agency section of this report.




Iraq/Afghanistan Oversight

During this semiannual reporting period, OIG audited the government-owned
personal property held by two contractors in Afghanistan responsible for
implementing Department programs dealing with civilian police training,
poppy elimination and eradication, humanitarian de-mining, and personal
protective services. OIG found that the Department could not account for all
the government-owned personal property furnished to and purchased by the
contractors, and that contractor property lists did not include all government-
owned property or all costs. Inadequate documentation raised questions about
$28.4 million, or 21 percent, of the $133 million in charges on the vouchers OIG

    Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   1
reviewed. Contractor reports on the capitalized assets under these contracts,
amounting to $40.6 million, were understated by at least $1.1 million to $2
million. These deficiencies existed because the Department had not defined
oversight responsibilities or developed policies and procedures to monitor
contractor-held property and, as a result, could not accurately determine the total
quantity and costs or track and control the property. Although the Department
had recently taken steps to strengthen its oversight, OIG recommended additional
actions to improve controls over contractor-held property.

An interagency assessment of the Counternarcotics Program in Afghanistan,
issued by the Offices of Inspector General of the Departments of State and
Defense, with staff on the assessment team from the Department of Justice
OIG, found that the “Five Pillar” approach to counternarcotics in Afghanistan
(eradication, alternative livelihoods, interdiction/law enforcement, justice reform,
and public information) was reasonable and comprehensive, but that there are no
quick fixes and achieving lasting success is a long-term proposition.

U.S. Government counternarcotics efforts depended on the Government of
Afghanistan showing both a firm determination and demonstrated ability to deal
with the issues. The assessment showed that progress on counternarcotics issues
was linked to defeating the insurgency, combating corruption, and extending
effective governance throughout the country. U.S. counternarcotics programs in
Afghanistan were not adequately integrated and coordinated among participating
departments and agencies. Considering that the $420 million allocated by the
U.S. for its counternarcotics programs was dwarfed by the roughly $38 billion
“street value” if the entire Afghan poppy crop were converted to heroin—and the
report noted indications the 2007 poppy cultivation may equal or exceed 2006,
with preliminary goals for eradication found not to be realistic—the assessment
team found no realistic possibility of outspending economic incentives in the
narcotics industry.

OIG performed certain agreed-upon procedures in response to a Bureau of
International Narcotics and Law Enforcement Affairs (INL) request to assess
its process for reviewing and approving DynCorp International (DynCorp)
invoices related to the Jordan International Police Training Center (JIPTC), which
provides training for Iraqi law enforcement personnel. OIG found that INL
approved payments without assurance that the work or services were completed
satisfactorily and that more than $11.5 million in JIPTC invoices were not
supported by complete, understandable, and clear documentation that complied




2           Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
with federal regulations, Department acquisition procedures, and contract
requirements. Subsequent improvements by INL to its invoice review and
approval process, if implemented as described, should strengthen the oversight
process. Streamlining documentation and optimizing best practices could further
strengthen the process.

The Inspector General issued a memorandum on his limited review, and the more
detailed inspection of the Camp by the Multi-National Forces – Iraq Inspector
General (MNF-I IG), of the Construction Workers Camp at the New Embassy
Compound in Baghdad. Based on the procedures specified in the memorandum,
nothing came to the attention of the IG or MNF-I IG that caused them to believe
trafficking violations of the kind referred to in the report, other than recruitment
fees illegal in some workers’ country of origin, occurred at the Camp.




Financial Management and Administrative Support

OIG issued six reports related to the financial statements of the Department of
State, the Foreign Service Retirement and Disability Fund, and the International
Boundary and Water Commission, United States & Mexico, U.S. Section, and
two reports on financial systems assessments performed in conjunction with the
financial statement audits. OIG also issued reports on seven indirect cost rate
reviews. Overall, OIG identified $40.7 million in questioned costs.

In conjunction with an investigation related to procurement practices at Embassy
Berlin, OIG auditors assessed whether procurements made from eight contractors
complied with federal regulations. OIG found that Embassy Berlin did not
procure goods and services in compliance with procurement regulations because
the embassy had not developed appropriate internal controls. The embassy
did not maintain adequate separation of duties, ensure that transactions were
properly authorized, or develop and maintain appropriate documents to support
the transactions, and supervisors did not adequately monitor these procurement
activities. OIG recommended, among other things, that the embassy work
with the Department to develop and implement a plan to thoroughly review the
embassy’s procurement process to address the issues discussed in this report.

A mandated OIG audit of the annual financial transactions of the National
Endowment for Democracy found that the Endowment had adequately
accounted for federal funds, complied with applicable criteria, and implemented
recommendations made in OIG’s July 2004 report (AUD/CG-04-39). However,
the Endowment needed to increase its oversight of the core institutes, which

  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   3
had not always closed grants and returned expired funds, maintained adequate
documentation to support travel costs, or practiced good cash management
procedures. As a result, OIG classified $215,885 as unallowable for expired
grant funds not returned to the Endowment by the core institutes, and $208,069
as unsupported because of a lack of adequate documentation for travel costs. OIG
recommended that the Endowment increase its oversight of the core institutes to
ensure corrective action and monitor their compliance with laws and regulations.




Security of People and Facilities

During this semiannual reporting period, OIG issued 12 security annexes
in conjunction with inspections of overseas missions, reporting on security
management at U.S. missions in Khartoum, Sudan, and its constituent post;
Nairobi, Kenya; Kampala, Uganda; Kigali, Rwanda; Bujumbura, Burundi;
Manila, Philippines; Phnom Penh, Cambodia; Baku, Azerbaijan; Tbilisi, Georgia;
Caracas, Venezuela; Port-au-Prince, Haiti; and U.S. Interests Section, Havana,
Cuba. A summary of these reports is included in the classified annex to this
semiannual report.

A review of the Department’s compliance with its cellular telephone security
policies found that none of the ten bureaus reviewed were in full compliance.
The review recommended reevaluating the Department’s cellular telephone
policies to balance user’s needs against known threats and vulnerabilities;
ensuring consistency of security requirements for all devices having cellular
telephone capability; consolidating all cellular telephone security requirements
in one location in the Foreign Affairs Manual; including cellular telephone
security requirements in employee security briefings and in the unit security
officer guidebook; and including cellular telephone security requirements on the
Department’s Blackberry Enterprise Server web site and in the Department’s
Blackberry user agreement.




Inspections of Department Missions, Bureaus, and Offices

During this reporting period, OIG issued management inspection reports at 12
embassies in Africa, Asia, Latin America, and the Caribbean. In addition, OIG
inspected five bureaus and offices within the Department as well as the Florida
Regional Center. During the course of these inspections, OIG identified a number
of best practices as well as potential cost efficiencies and other improvements,


4          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
which are described in the Inspections section of this Semiannual Report.
A two-part inspection of the Bureau of Human Resources (HR) found that
the Director General of the Foreign Service and the bureau faced significant
challenges in implementing the Secretary of State’s vision of transformational
diplomacy and ensuring the availability of a dynamic diplomatic corps that has
a broad range of knowledge, skills, and capabilities. Before proceeding with
additional rounds of the Global Repositioning Program, the Department needed
to undertake more rigorous planning and analysis to lay out clear objectives and
develop the most cost-effective means of achieving them. A controversial new
assignment system had successfully met its short-term goal of filling Foreign
Service vacancies in critical hardship embassies, but it was unclear whether the
Department would continue to be able to staff Iraq on a voluntary basis or would
have to move to directed assignments.

A management inspection of Embassy Manila found strong leadership of the
embassy’s highly complex and dynamic policy implementation activities.
Coordination between U.S. federal departments and agencies working in the
Philippines under chief of mission authority and those operating under the
authority of the U.S. regional military command was close and productive. The
management section was well managed, provided good services to its customers,
and had developed a number of innovative approaches deemed “Best Practices.”

The inspection of the Bureau of Administration’s Office of Logistics Operations
and Office of Program Management and Policy identified organizational, policy,
and regulatory changes that could increase effectiveness and substantially reduce
costs to the Department. There were serious deficiencies in the Department’s
management and oversight of about $1.2 billion of nonexpendable property
and motor vehicles valued at $300 million. Policies and practices encouraged
laxity, resulting in some organizations writing off shortages of property valued
at over $1 million without conducting any research to determine the cause of the
shortages. In another area, inspectors recommended that policy responsibility
for all diplomatic pouch and mail functions, currently split between the Office of
Logistics Management and the Bureau of Information Resource Management, be
transferred to the Bureau of Administration.

The inspection of the Office of the Coordinator for Reconstruction and
Stabilization (S/CRS) found that, despite its broad mandate, the office had not yet
carved out a leadership role in the management of reconstruction and stabilization
crises, but had remained on the periphery in the interagency handling of such
crises. Although S/CRS had not played the role its proponents hoped it would,
the S/CRS divisions had continued to develop doctrine, manage exercises,
and provide useful, albeit limited, assistance to embassies through the Active


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   5
Response Corps. S/CRS had excellent leadership, an able committed staff, and
surprisingly high morale, but its organizational pattern did not adequately reflect
the actual delineation of responsibilities within the office, inhibiting coordination
and communication.




Information Technology

During this semiannual reporting period, the Office of Information Technology
(OIG/IT) worked with the Office of Inspections as part of larger multidisciplinary
teams inspecting embassies in the Bureaus of African Affairs, East Asian and
Pacific Affairs, and Western Hemisphere Affairs, as well as the Bureau of
Human Resources, the Executive Office of the Bureau of Administration, and
S/CRS. Information management and information security operations were
evaluated to assess their effectiveness, resulting in Department actions to correct
OIG-identified deficiencies in IT training, and the dissemination of additional
information on standardizing the helpdesk process and change control board
request procedures. Additionally, discussions were held regarding standardization
and regionalization of IT support services.




Law Enforcement

OIG’s Office of Investigations (OIG/INV) addresses allegations of waste,
fraud, abuse, and mismanagement related to Department and BBG programs;
investigates and reports to the Department of Justice possible violations of
criminal law; and is committed to assisting each agency with preventing fraud.
During this semiannual period, OIG conducted investigations involving visa
malfeasance and fraud, passport fraud, embezzlement, false claims, employee
misconduct, and impersonation of a government official, which resulted in seven
convictions, nine indictments or informations, and approximately $715,000 in
fines, recoveries, and restitution.

As a result of OIG/INV investigations of the unauthorized resale of government-
subsidized Metrocheks by Department employees, the Department issued two
departmentwide notices regarding eligibility for and proper use of Metrocheks.
OIG/INV also is coordinating with the Bureau of Human Resources to identify
employees receiving Metrochek benefits while being enrolled in the Department’s
parking/car or van pool programs and to investigate further employee abuses of
the Metrochek benefit.


6           Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
As the result of a joint investigation with the Federal Bureau of Investigation,
reported in the last semiannual report, a BBG employee pleaded guilty to a
conflict of interest charge for knowingly and willingly accepting $112,000 in
unauthorized payments from two vendors. The employee was terminated from
employment and, on April 18, 2007, was sentenced to 27 months imprisonment,
three years probation, a $5,000 fine, and an additional $3,000 in legal fees for the
court-appointed attorney.




International Broadcasting

An inspection of the Office of Cuba Broadcasting (OCB) found that OCB had
significantly improved its broadcasting operations under the current director and
with the support of the BBG and the International Broadcasting Bureau (IBB).
The director and senior staff had implemented an organizational realignment
that combined the radio and television components of OCB and streamlined its
operations, thereby facilitating efforts to improve the quality of broadcasts.

The introduction of new technology had allowed OCB to broadcast television
signals live into Cuba using airborne platforms that made it significantly
more difficult for the Cuban Government to jam or disrupt the signal. The
OCB-originated airborne platforms concept—an innovative approach that has
applications for transmitting broadcast signals into other hostile theaters of
operation—was considered by the inspection team to be a best practice. As Cuba
transitions from the Castro regime, OCB will require a long-term strategic plan
to anticipate the future needs of the Cuban audience, provide a template for
competing with commercial broadcasters, and address what to do with OCB and
its broadcasting facilities if and when uncensored broadcasting is allowed inside a
democratic Cuba.

An inspection of BBG operations in Russia found that Radio Free Europe/Radio
Liberty (RFE/RL), the IBB marketing office, and Voice of America (VOA)
had well-run offices in Moscow and networks of freelancers across Russia that
were committed to achieving BBG objectives. However, BBG broadcasting was
losing its access to the Russian people due to changes in media trends and subtle
pressure from Russian authorities to discourage Russian radio and television
stations from hosting foreign programming. Keeping Russian staff was a
growing challenge because comparable jobs in the Russian electronic media had
better salary and benefit packages and because of a perception that working for
U.S.-funded media could mean blacklisting in the domestic market.


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   7
Inspector General Activities

In September 2007, Inspector General
Krongard traveled to Afghanistan,
Iraq, Jordan, Qatar, and Turkey to
participate with the Department of
Defense Inspector General in an
assessment of accountability for
weapons provided to the security
forces of Iraq and Afghanistan, to
observe and consider potential sites
for OIG’s Middle East Regional
Office, and to review and be updated
on Rule-of-Law, Anticorruption,
and other activities in the region.
Inspector General Krongard met with
numerous U.S. and host country senior
officials and addressed various groups
including the Association of all the               Inspector General Howard Krongard in
Iraqi Inspectors General.                          Afghanistan in September 2007




During the reporting period, the Inspector General participated in numerous
activities of the Inspector General community, including the 2007 Annual
President’s Council on Integrity and Efficiency (PCIE) and Executive Council
on Integrity and Efficiency (ECIE) Training Conference, meetings of of the Iraq
Inspectors General Council, the Intelligence Community Inspectors General
Forum, and the Inspection and Evaluation Committee of the PCIE.

In his role as Chair of the Board of External Auditors of the Organization of
American States (OAS), the Inspector General presented the Board’s 2006 Report
to the OAS Permanent Council, detailed the activities of the Board, highlighted
certain internal control and programmatic weaknesses that had been identified by
the Board, and made recommendations to the Permanent Council on how these
issues could be addressed. At the request of the Secretary General of the OAS,
Mr. Krongard also attended the OAS General Assembly session in Panama to
provide advice and consultation regarding budgeting, financial, and managerial
matters.

Among foreign visitors hosted by the Inspector General during the period were
the head of Iraq’s Commission on Public Integrity and the Chairman of the
Mongolian Border Protection Service. Within the Department, the Inspector

 8          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
General participated on various Department committees and spoke before various
groups, including a presentation to the annual Foreign Service National (FSN)
worldwide conference.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   9
10   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
    CONGRESSIONAL ACTIVITIES AND OUTREACH



TESTIMONY

During this reporting period, Inspector General Krongard testified before a joint
hearing of the full House Oversight and Government Reform Committee and the
Subcommittee on National Security and Foreign Affairs regarding allegations of
trafficking in persons at the new embassy compound Baghdad project in Iraq.


CONGRESSIONAL MANDATES AND REQUESTS

In response to legislative mandates and requests from Congress, OIG conducted
the following reviews during this semiannual period. Classified work undertaken
at the request of Congress is addressed in a separate classified annex to this
semiannual report.

•     As mandated by the Chief Financial Officers Act of 1990 (Pub. L. No. 101-
      576, as amended), OIG directed and monitored the following financial
      statement audits and other work conducted by an independent external
      auditor:

          o    Independent Auditor’s Report and the Related Management Letter
               on the Foreign Service Retirement and Disability Fund’s 2006, 2005,
               and 2004 Financial Statements (AUD/FM-07-39 and
               AUD/FM-07-40).

          o    Independent Auditor’s Report and the Related Management Letter on
               the International Boundary and Water Commission, United States and
               Mexico, U.S. Section’s 2006 and 2005 Financial Statements (AUD/
               FM-07-43 and AUD/FM-07-42).

          o    Management Letter Related to the Audit of the Department of State’s
               Restated 2006 and 2005 Financial Statements (AUD/FM-07-11).

          o    Independent Accountant’s Report on the Application of Agreed-
               Upon Procedures: Retirement, Health Benefits, and Life Insurance
               Withholdings/Contributions and Supplemental Semiannual
               Headcount Report Submitted to the Office of Personnel Management
               (AUD/FM-07-50).

    Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   11
•        The National Defense Authorization Act for 2000 (Pub. L. No. 106-65)
         requires the Inspectors General of the Departments of Commerce, Defense,
         Energy, Homeland Security, and State, in consultation with the Director of
         Central Intelligence and the Director of the Federal Bureau of Investigation,
         to conduct an annual review, through 2007, to assess the adequacy of current
         export controls and counterintelligence measures in order to prevent the
         acquisition of sensitive U.S. technology and technical information by
         countries and entities of concern. The Offices of Inspector General of these
         agencies conduct both agency-specific and interagency reviews. During
         this period, OIG followed up on prior recommendations that remained open
         and determined the actions needed to implement the recommendations
         (AUD/IP-07-44).

•        The National Endowment for Democracy Act, as amended, [22 U.S.C.
         4413(g)] mandates that OIG audit the annual financial transactions of the
         National Endowment for Democracy. OIG reviewed the financial transactions
         of the Endowment and its four core institutes for FYs 2003-05 to determine
         whether they accounted for federal funds, had adequate internal controls,
         and complied with applicable laws, regulations, policies, and terms of grant
         agreements (AUD/CG-07-33).

•        In response to the Federal Information Security Management Act of 2002
         (FISMA), OIG performed an independent evaluation of the information
         security program of the Department for sensitive compartmented information
         networks (IT-07-I-01). This report is summarized in the classified annex to
         this semiannual report.

MEDIA ASSISTANCE AND OUTREACH

During this semiannual period, OIG responded to media inquiries about work it
performed and other related matters. Most of the inquiries focused on OIG work
involving Department activities in the Middle East and the BBG’s Office of Cuba
Broadcasting. On July 31, 2007, OIG issued a press release on the release of
the report entitled Interagency Assessment of the Counternarcotics Program in
Afghanistan.

OIG staff participated in the following outreach activities during this semiannual
period:

•        Audit staff made a presentation on OIG at American University’s Kogod
         School of Business Recruitment Fair.

    12          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
•     Audit and Inspection staff spoke at the International Association of Black
      Professionals in International Affairs 8th Biennial Training Conference.

•     OIG senior staff from the Offices of Audits, Inspections, and Investigations
      made presentations at the Department’s training for administrative
      management officials.

•     Audit staff made a presentation on the importance of property administration
      at the Department-wide 2007 Contracting Officer’s Representative training
      session.

•     Inspection and Investigation staff made presentations at four Ambassadorial
      Seminars and two new Foreign Service Officers Classes.

•     OIG staff from the Offices of Audits, Inspections, and Investigations spoke at
      the Department’s training course for general services officers.

•     Senior Inspection staff briefed a group of students from Hamilton College
      who were in Washington for a semester studying various government issues.

•     Inspection staff chaired a panel session at the 18th Annual Women in
      International Security Summer Symposium at Georgetown University.

•     Senior Inspection staff briefed Deputy Chief of Mission and Principal
      Officers courses.

•     Inspection staff spoke at the Department’s new training course for first-time
      political and economic section heads.

•     Inspection and Executive Management staff briefed the Department’s
      Advanced Human Resources class.

•     Senior staff met with Ambassadors and Deputy Chiefs of Mission preparing
      to depart for new assignments to discuss areas of emphasis in their missions
      and provide suggestions to assist in the management of their mission.




    Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   13
LEGISLATION MONITORED

OIG reviewed and monitored the following legislation during this semiannual
report period:

•         H.R.1585, the National Defense Authorization Act for Fiscal Year
         2008, as it pertains to language establishing a Special Inspector General
         for Afghanistan Reconstruction. Also, S.A. 2150, an amendment to
          H.R. 1585, which establishes a Special Inspector General for Afghanistan
          Reconstruction.

•         H.R. 2206, the U.S. Troops Readiness, Veteran’s Care, Katrina Recovery
         and Iraq Accountability Act of 2007, which included funds for OIG for use in
         Iraq and Afghanistan.

•        H.R. 2246, the Afghanistan Freedom and Security Support Act of 2007.

•        H.R. 2740, the Military Extraterritorial Jurisdiction Act Expansion and
         Reinforcement Act of 2007, which would require Inspectors General working
         in any military theater of operations to coordinate their work with a newly
         created theater investigative unit within the FBI.

•        H.R. 2764, the Department of State, Foreign Operations, and Related
         Appropriations Act of 2008, which includes funding for OIG for Fiscal Year
         2008.

•        H.R. 928 and S. 1723, Improving Government Accountability Act, as
         introduced in both the House and the Senate. Both bills amend the 1978
         Inspector General Act.

•        H.R. 2420, International Climate Cooperation Re-Engagement Act of
         2007, which would assign oversight responsibility for the newly created
         International Clean Energy Foundation to OIG.

•        H.R. 1469 and S. 991, the Senator Paul Simon Study Abroad Foundation
         Act of 2007, as introduced in the House and Senate. Both bills assign
         oversight responsibilities for the newly created foundation to OIG.

•        S. 1825, Commission on Wartime Contracting Establishment Act, which
         would assign oversight review of security, intelligence, and reconstruction in
         Iraq and Afghanistan to the Special Inspector General for Iraq Reconstruction

    14          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
      in conjunction with State OIG and the Inspectors General from Defense
      Department and USAID.

•     S. 680, Accountability in Government Contracting Act of 2007, which would
      amend Section 8G(e) of the 1978 Inspector General Act, and prohibit
      Inspectors General from receiving cash awards.

•     S.A. 2709, an amendment to Fiscal Year 2008 appropriations for the
      Department of State, Foreign Operations and Related Programs, which
      Senator McCaskill proposes to introduce during conference. The amendment
      would place certain requirements on the websites of the Department and OIG.



IMPLEMENTATION OF THE GOVERNMENT
PERFORMANCE AND RESULTS ACT AND THE
PRESIDENT’S MANAGEMENT AGENDA

In support of the Government Performance and Results Act and the President’s
Management Agenda, OIG reviewed Mission and Bureau Strategic Plans and
rightsizing issues for each mission and bureau inspected during this reporting
period.

At Embassy Phnom Penh, the mission had done an exemplary job of meeting
the Department’s goal of consolidating administrative services, though the
greatest savings would only be realized when American direct-hire positions
were eliminated. At Embassy Kigali, inspectors recommended the elimination of
the assistant general services officer position. The OIG team also recommended
that Embassy Caracas seek National Security Decision Directive-38 approval to
formally eliminate the two U.S. Customs and Border Protection positions in the
narcotics affairs section. The inspection of Embassy Bujumbura recommended
that the embassy update its rightsizing report to reflect future staffing
requirements for all agencies at post, make certain that plans for the new chancery
will provide appropriate desk space and ancillary needs, and ensure that capital
security cost-sharing assessments are sufficient.

The Interagency Assessment of the Counternarcotics Program in Afghanistan
recommended that the Department, working through the Afghanistan Inter-
Agency Operations Group, prepare a rolling five-year budget and performance
plan for U.S. Government-funded counternarcotics programs in Afghanistan. The
recommendation stated that the plan should include outcome measures to track
the effectiveness of these programs.


    Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   15
The Inspection of the Bureau of Human Resources, Part II, recommended that
the Department review the cost effectiveness of measures taken in the first
two rounds of global repositioning and draw up a strategic plan to guide the
process before continuing further with the initiative, including how the plan
assesses how the limited resources of the Department could best be deployed to
achieve the objectives of the transformational diplomacy strategy. The report
also recommended that the Department develop a detailed, comprehensive
implementation plan, written in coordination with stakeholders, that lays out
specific milestones, resource requirements, and cost and service objectives for the
Centers of Excellence reorganization. Based on this plan, a timeframe should be
set that maintains momentum while allowing adequate time for implementation.

The Florida Regional Center (FRC), Fort Lauderdale, Florida, is a key component
in carrying out the Department’s regionalization and rightsizing policies, but
the inspection noted that FRC had not developed and implemented a system for
measuring the effectiveness of its programs. Without performance data, some
important decisions relating to the future expansion of FRC may be made based
on assumptions rather than fact. Through rightsizing and regionalization, the
Bureau of Western Hemisphere Affairs eliminated six direct-hire positions at
overseas embassies. This action improved security by reducing the U.S. presence
abroad and resulted in annual savings of approximately $2 million.




16         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
17
     U.S. Department of State
18   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                                                                       October 31, 2007


MEMORANDUM

TO:              The Secretary

FROM:             OIG – Howard J. Krongard

SUBJECT:         Semiannual Report to Congress, April 1, to
                 September 30, 2007

I am pleased to transmit to you the Office of Inspector General’s (OIG) Semiannual Report to the
Congress for the period ending September 30. This report is required by the Inspector General
Act of 1978, as amended, and covers the work of this office during the period indicated. The Act
requires that you transmit the report to the appropriate committees of the Congress by Novem-
ber 30, together with any comments you may wish to make.

OIG activities during the reporting period focused on key issues affecting the programs
and operations of the Department and BBG, including Iraq/Afghanistan oversight, financial
management, protection of people and facilities, inspections of overseas missions and domestic
programs, and information technology. These activities and our achievements are summarized in
this report, along with the required statistical data.
20   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                            MEMORANDUM



Construction Workers Camp at the New Embassy Compound,
Baghdad

In view of allegations regarding abuse and misconduct violations at the First
Kuwaiti Trading and Contracting Company construction workers camp (FK
Camp) at the New Embassy Compound site in Baghdad, the Inspector General
requested that the Inspector General for Multinational Forces–Iraq conduct
an on-site inspection of the FK Camp. MNF–I IG had significant experience
and expertise in inspecting camps in Iraq and was in the course of planning
for inspection of 57 other camps throughout Iraq. Initially, since the Inspector
General and Deputy Inspector General were to be in Iraq anyway for other
purposes, it was planned for them to join MNF–I IG’s inspection team. When
MNF-I IG’s schedule got delayed, the IG and Deputy Inspector General did a
more limited review of their own while in Iraq. Their limited review consisted of
procedures set forth in the Memorandum – including interviews of construction
workers following the questionnaire developed by MNF–I IG – and was
designed to provide negative assurance rather than attestation regarding specified
allegations of violations. Based only on the procedures set forth, nothing came to
their attention that caused them to believe the specified violations had occurred at
the FK Camp.

Subsequently, the MNF–I IG conducted its inspection over the course of two
visits to the FK Camp. MNF–I IG’s procedures and experience were significantly
more extensive than that of the IG and Deputy Inspector General. MNF–I IG
reported that, except for recruitment fees illegal in some workers’ country
of origin, no evidence was found of trafficking-in-persons violations at the
FK Camp. The Memorandum set forth OIG’s work, included MNF–I IG’s
memorandum on the results of its inspection, and described as well the results
from a visit to the FK Camp by senior officials from Embassy Baghdad.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   21
22   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                                    AUDITS


Accounting for Government-Owned Personal Property Held by
Selected Contractors in Afghanistan (AUD/IQO-07-48)

OIG audited the government-owned personal property held by DynCorp
International, LLC, and Blackwater USA in Afghanistan under their respective
responsibilities for implementing Department programs dealing with civilian
police training, poppy elimination and eradication, humanitarian de-mining, and
personal protective services. The objective of this audit was to determine whether
the Department could account for the government-owned personal property
furnished to and purchased by the contractors.

OIG found that the Department could not account for all the property furnished
to and purchased by the contractors. Contractor property lists did not include
all government-owned property, nor did they include all costs. In addition, the
contractors acquired property that was not specified in the contracts and provided
payment vouchers that did not contain adequate information. The inadequate
documentation raised questions about $28.4 million, or 21 percent, of the $133
million in charges on the DynCorp vouchers OIG reviewed. Further, contractor
reports on the capitalized assets under these contracts, amounting to $40.6
million, were understated by at least $1.1 million to $2 million.

These deficiencies existed because the Department neither defined oversight
responsibilities nor developed policies and procedures to monitor contractor-held
property. As a result, the Department could not accurately determine the total
quantity and costs or track and control the property. Although the Department
had recently taken steps to strengthen its oversight, OIG recommended additional
actions to improve controls over contractor-held property.




Independent Auditor’s Report on the Application of Agreed-Upon
Procedures Related to Selected DynCorp Invoices
(AUD/FM-07-41)

At INL’s request, OIG assessed INL’s process for reviewing and approving
DynCorp International invoices for FY 2005 related to the Jordan International
Police Training Center (JIPTC). The objective was to determine whether the
process was effective and invoices were adequately supported. In addition,

  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   23
OIG identified best practices for reviewing and approving invoices from other
organizations.

Overall, OIG found that INL did not have an effective process for reviewing and
approving DynCorp invoices. For example, INL approved payments without
assurance that the work or services were completed satisfactorily. Further, OIG
found that the JIPTC invoices were not supported by complete, understandable,
and clear documentation that complied with federal regulations, Department
acquisition procedures, and contract requirements. OIG identified more than
$11.5 million in inadequately supported invoice amounts.

In March and May 2007, INL provided OIG with information on improvements
it had made in its invoice review and approval process. OIG did not assess the
adequacy of INL’s initiatives because this information was not provided until
after the end of OIG’s fieldwork. However, if the initiatives are implemented
as described, the oversight process should be strengthened. The process could
be further strengthened if INL streamlines documentation and optimizes best
practices. Once INL implements OIG’s recommendations related to JIPTC, it
may want to consider expanding the processes to address all contract oversight
within the bureau.




Procurement Practices at Embassy Berlin (AUD/FM-07-28)

In conjunction with an investigation related to procurement practices at
Embassy Berlin, the OIG auditors assessed whether procurements made from
eight contractors complied with federal regulations. These procurements were
predominantly for construction-related items and facilities maintenance and repair
work.

OIG found that Embassy Berlin did not procure goods and services in compliance
with procurement regulations. For instance, the embassy did not always prepare
scope of work or government estimates, justify sole-source contracts, include
multiple contractors on blanket purchase agreements, rotate activities between
contractors, or adhere to required monetary limits for certain procurement
activities. This condition occurred because the embassy had not developed
appropriate internal controls. The embassy did not maintain adequate separation
of duties, ensure that transactions were properly authorized, or develop and
maintain appropriate documents to support the transactions, and supervisors
did not adequately monitor these procurement activities. OIG recommended,
among other things, that the embassy work with the Department to develop and


24         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
implement a plan to thoroughly review the embassy’s procurement process to
address the issues discussed in this report.




Audit of the National Endowment for Democracy
(AUD/CG-07-33)

The National Endowment for Democracy Act, as amended, mandates that the OIG
audit the annual financial transactions of the National Endowment for Democracy.
The purpose of the audit objectives is to determine whether the Endowment
accounted for federal funds, had adequate internal controls, and complied with
applicable laws, regulations, policies, and terms of grant agreements for
FYs 2003-05.

In general, OIG found that the Endowment adequately accounted for federal
funds, complied with applicable criteria, and implemented recommendations
made in OIG’s July 2004 report (AUD/CG-04-39). However, the results of
OIG’s work indicated that the Endowment needs to increase its oversight of
the core institutes, who had not complied with federal requirements for grant
administration. They did not always close grants and return expired funds,
maintain adequate documentation to support travel costs, or practice good cash
management procedures. As a result, OIG classified $215,885 as unallowable
for expired grant funds not returned to the Endowment by the core institutes, and
$208,069 as unsupported because of a lack of adequate documentation for
travel costs.

OIG recommended that the core institutes return the $215,885 in expired grant
funds to the Endowment and comply with grant closure requirements and provide
additional information on the unsupported travel costs totaling $208,069, among
other recommendations. In addition, OIG recommended that the Endowment
increase its oversight of the core institutes to ensure corrective action and monitor
their compliance with laws and regulations.




Management Letter Related to the Audit of the Department of
State’s Restated 2006 and 2005 Financial Statements
(AUD/FM-07-11)

During the audit of the Department’s restated 2006 and 2005 financial statements,
the independent external auditor identified internal control weaknesses relating

  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   25
to fund balance with Treasury, accounts receivable and payable, payroll accruals,
payroll documentation, prompt payments, heritage assets, deferred maintenance,
the Department’s compliance with OMB Circular A-123, Management
Responsibilities for Internal Control, cash and cash receipts at posts, state and
federal income tax withholding, management’s discussion and analysis, and the
Foreign Service Retirement and Disability Fund’s (FSRDF) actuarial liability.
The auditor recommended that the Department take appropriate action to address
these weaknesses.



Information Technology Assessment of the Consolidated American
Payroll Processing System (AUD/FM-07-35) and Assessment of
Information System Controls for the Foreign National Payroll
System (AUD/FM-07-38)

Federal guidance requires that auditors assess the adequacy of the audited entity’s
internal controls, including those on automated systems processing financial data,
during the audits of financial statements. OIG contracted with an independent
external auditor to audit the Department’s financial statements. The auditor used
an IT specialist to perform an assessment of the Consolidated American Payroll
Processing System (CAPPS) and the Foreign National Payroll System (FSN Pay).

CAPPS shares a user environment with the Regional Financial Management
System (RFMS), which was evaluated during a vulnerability assessment of RFMS
(Information Technology Vulnerability Assessment of the Regional Financial
Management System, AUD/FM-07-13, Feb. 2007). The findings included in the
RFMS report are also applicable to CAPPS.

The specialist concluded that FSN Pay had general information security
controls in place, including physical security, to ensure that critical financial
and operational data were maintained in a manner that ensured confidentiality,
integrity, and availability. The Department had developed and documented
operating procedures for FSN Pay, including those related to access control,
segregation of duties, incident response, and configuration or change
management. The general controls for FSN Pay were sound. The specialist
recommended that the contingency plan in place at the Global Financial Services
Center in Bangkok, Thailand, be tested.




26         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
Independent Auditor’s Report on the Foreign Service Retirement
and Disability Fund’s 2006, 2005, and 2004 Financial Statements
(AUD/FM-07-39)

The independent external auditor issued an unqualified opinion on the Foreign
Service Retirement and Disability Fund’s (FSRDF) financial statements as
of September 30, 2006, 2005, and 2004, and did not identify any reportable
conditions related to internal control or material instances of noncompliance.




Management Letter Related to the Audit of the Foreign Service
Retirement and Disability Fund’s 2006, 2005, and 2004 Financial
Statements (AUD/FM-07-40)

During the audit of the FSRDF’s financial statements as of 2006, 2005, and 2004,
the independent external auditor identified an internal control weakness relating
to overpayments to annuitants. The Department was not consistent in establishing
an accounts receivable in a timely manner after it discovered overpayments to
annuitants. The auditor recommended that the Department establish accounts
receivable for collection of overpayments to annuitants as soon as overpayments
are discovered. The auditor also noted opportunities for the Department to
improve its actuarial report related to FSRDF.




Independent Auditor’s Report on the International Boundary and
Water Commission, United States and Mexico, U.S. Section’s 2006
and 2005 Financial Statements (AUD/FM-07-43)

The independent external auditor issued an unqualified opinion on the
International Boundary and Water Commission, United States and Mexico,
U.S. Section’s (USIBWC) financial statements as of September 30, 2006 and
2005, and did not identify any reportable conditions related to internal control or
material instances of noncompliance.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   27
Management Letter Related to the Audit of the Financial
Statements for the International Boundary and Water
Commission, United States and Mexico, U.S. Section
(AUD/FM-07-42)

During the audit of the USIBWC financial statements as of 2006 and 2005, the
independent external auditor identified internal control weaknesses relating to
USIBWC’s internal audits and evaluations, property and equipment, accounts
receivable, contract accruals, personnel issues, deferred maintenance, and
financial reporting. The auditor recommended that USIBWC take appropriate
action to address these weaknesses.




Independent Accountants’ Report on the Application of
Agreed-Upon Procedures: Retirement, Health Benefits, and
Life Insurance Withholdings/Contributions and Supplemental
Semiannual Headcount Report Submitted to the Office of
Personnel Management (AUD/FM-07-50)

Under OIG’s direction, an independent external auditor performed agreed-upon
procedures, as required by OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements. These procedures were performed solely to assist
the Office of Personnel Management (OPM) in assessing the reasonableness
of the Retirement, Health Benefits, and Life Insurance withholdings and
contributions, as well as enrollment information submitted by the Department
through the Semiannual Headcount Report. The auditor identified one instance
in which information on an employee’s health insurance election contained in the
Department’s payroll system and information in the official personnel file was
inconsistent and two instances of reportable differences between the auditor’s
calculations of life insurance coverage withholdings and the amounts submitted to
OPM.




28         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by The
International Center (AUD/CG-07-21)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether The International Center’s proposed indirect
cost rates for the years ended December 31, 2005, 2004, and 2003, complied with
applicable regulations. The auditors found the Center’s accounting system to be
adequate for accumulating and reporting indirect costs under the provisions of
OMB Circular A-122, Cost Principles for Non-Profit Organizations, and Circular
A-110, Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.

The auditors reported that the indirect cost rates proposed by the Center for the
years ended December 31, 2005, 2004, and 2003, were properly calculated,
except for the year ended December 31, 2004, which the independent auditors
adjusted to account for a computation error made by the Center. The auditors
recommended that the Department accept and finalize the indirect cost rates for
the stated years as recommended by the report.




Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by U.S.
Civilian Research and Development Foundation (AUD/CG-07-22)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether the U.S. Civilian Research and Development
Foundation’s proposed indirect cost rates for the year ended December 31, 2004,
complied with applicable regulations. The auditors found the Foundation’s
accounting system to be adequate for accumulating and reporting indirect costs
under the provisions of OMB Circulars A-122 and A-110. For the year ended
December 31, 2004, the indirect cost rates reported by the Foundation were
properly calculated, and the accountants recommended that the Department accept
and finalize these rates as submitted by the Foundation.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   29
Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by Woodrow
Wilson International Center for International Scholars
(AUD/CG-07-23)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether the Woodrow Wilson International Center
for Scholars’ proposed indirect cost rates for the fiscal years ended September
30, 2005 and 2004, complied with applicable regulations. The auditors found
the Center’s accounting system to be adequate for accumulating and reporting
indirect costs under the provisions of OMB Circulars A-122 and A-110. The
auditors reported that the indirect cost rates proposed by the Center for the fiscal
years ended September 30, 2005 and 2004, were properly calculated, and they
recommended that the Department accept and finalize the indirect cost rates for
the stated years as proposed by the Center.



Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by Sabre
Foundation, Inc. (AUD/CG-07-24)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether Sabre Foundation, Inc.’s proposed indirect cost
rates for the years ended December 31, 2003, 2004, and 2005, complied with
applicable regulations. The auditors found the Foundation’s accounting system
to be adequate for accumulating and reporting indirect costs under the provisions
of OMB Circulars A-122 and A-110. However, the independent auditors took
exception to the rates proposed by the Foundation for the years ended December
31, 2005, 2004, and 2003, and recommended that the Department accept
and finalize the Foundation’s indirect cost rates for these years based on the
recommended rates included in the report.




Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Costs Claimed by Atlantic Corridor, U.S.A.,
Inc., Under Department of State Grants (AUD/CG-07-29)

OIG contracted with independent external auditors to perform agreed-upon
procedures on costs claimed by Atlantic Corridor, U.S.A., Inc., under four grants

30          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
awarded to Atlantic Corridor by the Department. The auditors’ primary purpose
was to determine whether Atlantic Corridor adequately accounted for federal
funds and complied with applicable federal laws and regulations related to the
terms and conditions of the grants.

The auditors’ review disclosed that Atlantic Corridor did not properly manage
the cash drawdowns related to the Department grants under the government’s
Payment Management System. As a result, Atlantic Corridor drew down
$226,705 more than its claimed costs under the grants. The auditors’ review
indicated that Atlantic Corridor used the excess funds to support operational needs
of the organization, outside the scope of the Department grants. The auditors
questioned $142,749 of the costs claimed under the grants, including $97,388
as unsupported costs and $45,361 as unallowable. They recommended that the
Department require Atlantic Corridor to reimburse the Department for the excess
drawdowns and unallowable costs and also provide information to justify the
unsupported costs.

In addition, the auditors noted three areas where Atlantic Corridor was not
complying with the grants and other regulations related to documenting travel
expenses, financial reporting to the Department, and preparing detailed time
sheets. The independent auditors recommended that the Department require
Atlantic Corridor to take steps to correct these noncompliance items. Lastly,
based on their overall review of Atlantic Corridor’s financial records, the
accountants questioned the Atlantic Corridor’s financial and management
capability to continue as a going concern and recommended that the Department
evaluate Atlantic Corridor’s capability before awarding additional grants.



Independent Accountants’ Report on the Application of
Agreed-Upon Procedures on Indirect Cost Rates Proposed by
International Research and Exchanges Board
(AUD/CG-07-31)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether the International Research and Exchanges
Board’s (IREX) proposed indirect cost rates for the years ended December 31,
2006, 2005, 2004, 2003, 2002, and 2001, complied with applicable regulations.
The auditors found IREX’s accounting system to be adequate for accumulating
and reporting indirect costs under the provisions of OMB Circulars A-122 and
A-110.


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   31
The auditors’ review disclosed that for the years ended December 31, 2006, 2005,
and 2004, the indirect cost rates proposed by IREX were properly calculated.
The review did not make any determination on the indirect cost rates proposed
by IREX for the years ended December 31, 2003, 2002, and 2001, because IREX
was unable to provide detailed invoices to support all the charges for indirect
costs claimed in those years. However, the report notes that the indirect cost rates
proposed by IREX in those years are consistent with those reviewed for the three
subsequent years. The auditors recommended that the Department accept and
finalize the indirect cost rates proposed by IREX for the years ended December
31, 2006, 2005, and 2004.




Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by Maureen
and Mike Mansfield Foundation (AUD/CG-07-34)

OIG contracted with independent external auditors to perform agreed-upon
procedures to determine whether the Maureen and Mike Mansfield Foundation’s
proposed indirect cost rates for the fiscal years ended June 30, 2006, 2005,
2004, and 2003 complied with applicable regulations. The auditors found the
Foundation’s accounting system to be adequate for accumulating and reporting
indirect costs under the provisions of OMB Circulars A-122 and A-110.

The auditors’ review disclosed that for the fiscal years ended June 30, 2006, 2005,
2004, and 2003, the indirect costs proposed by the Foundation were properly
calculated. They recommended that the Department accept and finalize the
indirect cost rates for these years as recommended in the report. The auditors
also noted one instance of noncompliance with the requirements of OMB Circular
A-122 relating to travel documentation, and recommended that the Department
require the Foundation to comply.




Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Costs Claimed by Meridian International
Center Under Department of State Cooperative Agreements
(AUD/CG-07-37)

OIG contracted with independent external auditors to perform certain agreed-
upon procedures on the costs claimed by Meridian International Center under


32         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
cooperative agreements with the Department. The procedures were to determine
whether the Center adequately accounted for federal funds related to the
agreements and complied with the terms of the agreements and the cost principles
of OMB Circulars A-122 and A-110.

For FYs 2005, 2004, and 2003, the Center developed a value for its cost share
based on what it called lost conference facility revenues for space reserved for
Department activities. The agreements, however, did not contain a line item for
use of the Center’s space; thus, the forgone opportunity cost related to conference
facilities was not an appropriate cost. Further, the Center was also charging
Department programs for a share of the meeting space costs through an allocation
of the Center’s maintenance and operations costs. Thus, the auditors questioned
$308,250 of the total share amounts the Center reported to the Department for the
three fiscal years.

For the FYs ended September 30, 2005, 2004, and 2003, the auditors
computed indirect cost rates that varied from the Center’s provisional rates and
recommended that, subject to the availability of funds, the Department accept and
finalize the indirect cost rates for the FYs ended September 30, 2005, 2004, and
2003, at their recomputed or recommended rates.

The review also disclosed that the Center was not requiring employees to prepare
detailed records of time charges as required by OMB Circular A-122. The
auditors made recommendations to correct these deficiencies and questioned
as unsupported $31,580 in payroll costs related to lack of detailed records of
employee time charges.



Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by National
Strategy Information Center, Inc. (AUD/CG-07-45)

OIG contracted with independent external auditors to perform certain agreed-upon
procedures to determine whether the National Strategy Information Center, Inc.’s
(Center) proposed indirect cost rates for the fiscal years ended October, 31, 2005
and 2004 complied with applicable regulations. The auditors found the Center’s
accounting system adequate for accumulating and reporting indirect costs under
the provisions of the OMB Circulars A-122 and A-110.

The auditors did note, however, that the proposed indirect cost for general and
administrative expenses for the fiscal year ended October 31, 2004, included $154

  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   33
for entertainment charges that contravene the provisions of OMB Circular A-122
and accordingly, disallowed those costs.

Overall, the auditors’ review disclosed that for the fiscal years ended October 31,
2005 and 2004, except for the disallowed costs, the indirect cost rates reported
by the Center were properly calculated, and that the Center’s indirect cost rate
structures complied with OMB Circular A-122. The auditors recommended that
the Department accept and finalize the indirect cost rates for the fiscal years ended
October 31, 2005 and 2004, as recommended by the report.




Compliance Follow-up Review on Export Controls
(AUD/IP-07-44)

To comply with the requirements of the National Defense Authorization Act
for FY 2000 (P. L. No. 106-65), the Inspectors General of the Departments of
Commerce, Defense, Energy, Homeland Security, and State in consultation
with the Director of Central Intelligence and the Director of the Federal Bureau
of Investigation conducted an annual review. The overall objective of the
Inspectors General as defined in the interagency implementation agreement, was
to determine whether management had effectively addressed recommendations
contained in the export control reports that were issued between 2000 and 2006.
OIG’s objective was to follow up on prior recommendations that remained open
and determine the actions needed to implement the recommendations.

PM’s Directorate of Defense Trade Controls (PM/DDTC) had implemented
28 of the 29 recommendations in OIG the reports. In the 2006 report, OIG
recommended that PM/DDTC establish performance measures that detail
benchmarks and timeframes for reducing and eliminating the number of
unfavorable post-license end-use checks. In its response, PM/DDTC said
that over the next year, it would consider whether such measures, along with
time-lines and benchmarks, would be of value in its compliance and licensing
functions. Therefore, the recommendation remains unresolved until PM/DDTC
makes its final determination.



Return to Work: An Important Program for the Department of
State To Implement (AUD/IP-07-47)

OIG conducted an audit to determine whether the Department had established
an effective program for returning to work those employees who had been

34          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
injured on the job and had been receiving benefits under the Federal Employees’
Compensation Act. OIG determined that a systematic effort to contact and
encourage injured employees to return to work as soon as medically feasible is
an industry and government best practice and a key internal control to reduce
claimant fraud.

OIG found, however, that although officials in the Bureau of Human Resources
(HR) had drafted a policy paper for such a program, they had not established
a program. HR officials said there were uncertainties regarding which bureau
within the Department should develop and manage the program. When developed
and implemented, a return-to-work program should enable injured Department
workers to return to the workplace more quickly and decrease workers’
compensation costs. HR agreed with the need to establish a formal return-to-work
program, using best practice elements presented in OIG’s report.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   35
36   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                             INSPECTIONS


AFGHANISTAN PROGRAM REVIEW



Interagency Assessment of the Counternarcotics Program in
Afghanistan (ISP-I-07-34)

An interagency assessment of the Counternarcotics Program in Afghanistan found
that the “Five Pillar” approach to counternarcotics in Afghanistan (eradication,
alternative livelihoods, interdiction/law enforcement, justice reform and public
information) was reasonable and comprehensive. Attention to each pillar must
move forward in a coordinated fashion. There are no quick fixes. Achieving
lasting success is a long-term proposition. U.S. Government counternarcotics
efforts depend on the Government of Afghanistan demonstrating both a firm
determination and demonstrated ability to deal with the issues.

Progress on counternarcotics issues was linked to defeating the insurgency,
combating corruption, and extending effective governance throughout the
country. There was consensus within the U.S. Government that counternarcotics
was critical to and interrelated with all aspects of U.S. Government’s involvement
in Afghanistan. The priority of counternarcotics relative to other objectives
was not clear and should be established and agreed to by all U.S. Government
elements involved in the effort. In view of “market value” of poppy and heroin,
there is no realistic possibility of outspending economic incentives in the
narcotics industry.

U.S. Government counternarcotics programs were not adequately integrated
and coordinated among participating departments and agencies. Management
and oversight of these programs merited more staff resources. The quality and
extent of interagency cooperation were highly dependent on the capabilities of the
embassy ‘drug czar,’ a contract employee. A different management model was
recommended to strengthen planning, oversight, and coordination.

Security in the poppy producing provinces was a growing concern. This
necessitated further reliance on aircraft and air support for execution of
counternarcotics programs. The airlift capacity was inadequate for a variety of
funding, equipment, personnel and bureaucratic reasons.



 Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   37
Security

During this semiannual reporting period, OIG issued 12 security annexes in
conjunction with inspections of overseas missions. These annexes reported on
security management at missions Khartoum, Sudan and its constituent post;
Nairobi, Kenya; Kampala, Uganda; Kigali, Rwanda; Bujumbura, Burundi;
Manila, Philippines; Phnom Penh, Cambodia; Baku, Azerbaijan; Tbilisi, Georgia;
Caracas, Venezuela; Port-au-Prince, Haiti; and U.S. Interests Section, Havana,
Cuba. A summary of these reports is included in the classified annex to this
semiannual report.




Review of Department Headquarters’ Implementation of Cellular
Telephone Security Policies (SIA-I-07-01)

This OIG review examined the Department’s compliance with its cellular
telephone security policies. The review was conducted through interviews and
reviews of the policies and procedures at 10 of the Department’s 50-plus bureaus
and principal offices. The review found none of the 10 to be in full compliance.
The review recommended: 1) reevaluating the Department’s cellular telephone
policies to balance user’s needs against known threats and vulnerabilities;
2) establishing consistency among policies and consolidating them into one
location in the Department’s Foreign Affairs Manual (FAM); 3) including
cellular telephone security requirements in employee security briefings and the
unit security officer guidebook; and 4) including cellular telephone security
requirements in the Department’s Blackberry Enterprise Server web site and
the user’s agreement for users of the Department’s Blackberry Personal Digital
Assistant.




38         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
DOMESTIC BUREAUS AND OFFICES



Inspection of the Bureau of Human Resources (ISP-I-07-16)

Due to the large size of the Bureau of Human Resources (HR), and the wide scope
of its responsibilities, OIG conducted this inspection in two parts. Part I of the
inspection concluded that the Director General of the Foreign Service (Director
General) and HR faced significant challenges in implementing the Secretary
of State’s vision of transformational diplomacy and ensuring the availability
of a dynamic diplomatic corps that has a broad range of knowledge, skills, and
capabilities. In addition, the Civil Service personnel system did not facilitate the
optimal training, development, promotion, and utilization of these employees.
The Department also needed to codify in one place and strengthen its commitment
to locally employed staff.

A 15-percent deficit in mid-ranked Foreign Service positions that resulted from
decreased hiring in the 1990s continued to hamper staffing for key Department
positions worldwide. The Department could only overcome this problem before
2010 through an extraordinary intervention in the hiring and promotion process
for Foreign Service officers.

The inspectors found that post assignment travel funds were at high risk for
waste, fraud, and mismanagement because of a weak controls environment and a
costly, inefficient system for managing employee travel and the transportation of
household effects.




Inspection of the Bureau of Human Resources, Part II
(ISP-I-07-45)

Part II of the inspection of HR found that the bureau had faced extraordinary
challenges during the past few years but was able to meet urgent demands as well
as address some longer term problems. A controversial new assignment system
successfully met its short-term goal of filling Foreign Service vacancies in critical
hardship embassies. However, it was unclear whether the Department would
continue to be able to staff Iraq on a voluntary basis or would have to move to
directed assignments.


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   39
A Global Repositioning Program moved 200 Foreign Service jobs from
Washington, Europe, and elsewhere to India, China, and other countries to
support transformational diplomacy. Before proceeding with additional rounds
of this program, the Department needed to undertake more rigorous planning and
analysis to lay out clear objectives and develop the most cost-effective means of
achieving them.

The Department’s efforts to establish shared services (Centers of Excellence), for
certain HR functions needed to be put on a rational implementation schedule if it
was to succeed. The Department also needed to explore consolidation of certain
HR services in a single center. A new Foreign Service entry examination process
will speed the hiring process, a long overdue reform. Close monitoring will be
needed to determine whether the new approach would also meet its objective of
bringing in more diplomats with relevant skills and experience.

Retirement processing has been one of the most criticized bureau functions.
The Director General had augmented the staff, strengthened the management
structure, and requested funding for a much needed upgraded information system.
Should these efforts fail to produce results, the Department will need to assess the
feasibility of transferring the function to another shared services center, whether
inside or outside the Department.

The bureau needed to staff its conduct and suitability division fully to ensure
timely and fair adjudication of all discipline cases. Also, the Department needed
to make a significant investment in upgrading HR information systems to improve
efficiency, consistency, and quality of service.




40          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
       Best Practice: Permanent Change of Station Lodging Program

       Issue: Department employees receive reduced per diem lodging
       payments for long-term training assignments. Employees assigned
       to training for longer than four months generally pay about $80 a day
       out of pocket for hotel lodging expenses, creating a disincentive to
       long-term training.

       Response: The Bureau of Human Resources contracted for lodging
       with a commercial hotel that agreed to provide rooms at 33 percent
       below the government per diem rate. The rooms were made available
       to students on a first-come, first-served basis with priority given to
       those on long-term training assignments. The program has filled
       20,000 room-nights in its first three months and expects to exceed
       targets by year-end. The Bureaus of Diplomatic Security and
       Overseas Buildings Operations and the Foreign Service Institute plan
       to participate in the expanded program.

       Result: The Department has removed a significant disincentive to
       long-term training at minimal or no cost to the U.S. government.
       Substantial costs savings to the government should result as the
       program expands to 200,000 room-nights a year later in FY 2007.




Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   41
Inspection of the Bureau of Administration’s Office of Logistics
Operations and Office of Program Management and Policy
(ISP-I-07-21)

The inspection of the Bureau of Administration’s Office of Logistics and Office
of Program Management & Policy found that the relatively new deputy assistant
secretary for the Bureau of Administration’s Office of Logistics Management
had the opportunity to increase effectiveness and substantially reduce costs to the
Department by implementing the organizational, policy, and regulatory changes
outlined in the inspection. Full implementation of several existing programs, plus
full utilization of the Hagerstown, MD, storage facility, could result in significant
savings for the Department.

There were serious deficiencies in the Department’s management and oversight of
about $1.2 billion of nonexpendable property and motor vehicles valued at $300
million. Policies and practices encouraged laxity, resulting in some organizations
writing off shortages of property valued at over $1 million without any research
to determine the cause of the shortages. In addition, the Department’s Property
Survey Board, which is responsible for assigning responsibility for shortages, had
not convened for several years. Some property disposal reports were found by
the team to be inaccurate, and shortages were identified in a substitute category,
although the items should have been reported as missing.

The Office of Logistics Management managed, operated, and established
procedures for all diplomatic pouch and mail functions; however, policy
responsibility for these functions resided nominally in the Bureau of Information
Resource Management. Policy responsibility for these functions should be
transferred to the Bureau of Administration.




Inspection of the Bureau of Administration, Executive Office
(ISP-I-07-33)

OIG’s inspection of the Bureau of Administration’s (A) Executive Office (A/EX)
found that operations had changed significantly in the past three years, with
its movement toward a shared-services delivery model. In addition, workload
increased dramatically with the transfer of functions from the Bureau of
Information Resource Management’s (IRM) Executive Office (IRM/EX) and the
establishment of the A/EX Human Resources division as a Center of Excellence
— a shared services center.


42          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
Overall, A/EX had performed exceedingly well. It effectively managed a
doubling of the number of personnel it supports. It also maintained control over
a significant increase in funds, established a presidential travel program that
is universally lauded, and successfully absorbed the management functions of
several smaller offices and bureaus.

A/EX’s Human Resources division had been designated as a pilot Center of
Excellence. The Center of Excellence initiative is part of a larger Department
move to implement a shared services model for delivering management support
functions. Better Department planning to implement the initiative and to
arrange for A/EX absorption of the IRM/EX human resources workload would
have improved A/EX awareness of the considerable workload backlogs it
would inherit. A/EX had not yet completed personnel and other administrative
requirements inherited from the IRM merger, adversely affecting employee
performance and morale.

As a result of assuming management functions from IRM, some A/EX activities,
such as acquisitions, space planning, and management, were similar to and even
duplicated the functions of other A Bureau offices, contrary to the implementation
of the Department’s shared services concept. The inspection noted that some
realignment may be necessary. A/EX’s management controls and oversight of the
A Bureau’s purchase card program also needed strengthening.



Inspection of the Office of the Coordinator for Reconstruction and
Stabilization (ISP-I-07-26)

The inspection of the Office of the Coordinator for Reconstruction and
Stabilization (S/CRS) found that despite its broad mandate, S/CRS had not yet
carved out a leadership role in the management of reconstruction and stabilization
crises. It had remained on the periphery in the interagency handling of such
crises, playing only an incremental role.

S/CRS had four central issues on its agenda that would determine whether
it would expand significantly the parameters of its present responsibilities
and establish for itself a viable institutional role. These issues were: a new
relationship with the Director of Foreign Assistance, a major role in implementing
the S/CRS charter in National Security Presidential Directive-44, a lead role in
developing the Civilian Reserve Corps, and management of the Department of
Defense’s FY 2007 $100 million transfer authority. Although S/CRS had not
played the role its proponents hoped it would, the S/CRS divisions had continued


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   43
to develop doctrine, manage exercises, and provide useful, albeit limited,
assistance to embassies through the Active Response Corps. S/CRS had excellent
leadership, an able committed staff, and surprisingly high morale.

The inspection found that S/CRS needed to restructure. Its organizational pattern
did not adequately reflect the actual delineation of responsibilities within the
office and inhibits coordination and communication.




Inspection of the Office of the Executive Director, Executive
Secretariat (ISP-I-07-38)

The inspection of the Office of the Executive Director of the Office of the
Secretary (S/ES-EX) found the office was doing an impressive job in difficult
circumstances. It received generally high marks for its managerial support to the
Secretary and the other senior Department principals as well as the other offices
under its responsibilities—some 34 in all. The executive leadership and the
general services and security units received particularly high praise, as did support
for the Secretary’s international travel.

At the same time, the inspectors found that S/ES-EX was clearly straining
under its constantly growing administrative burden, now encompassing four
large operating entities, three assigned to it since 2003. These large offices had
programs totaling $108 million (in FY 2006) with 320 personnel. Coupled with
continuing growth in the offices directly attached to the Secretary and persisting
vacancies in its key units, S/ES-EX was keeping its head above water, but in
some areas, just barely. The human resources and financial management units
particularly were struggling.

S/ES-EX needed to limit its management focus to support of the Secretary, other
Department principals, and the offices traditionally attached to the Office of the
Secretary. The Department needed to establish alternate management support
mechanisms for the offices of the Director of Foreign Assistance, the Coordinator
for Reconstruction and Stabilization, the U.S. Global AIDS Coordinator, and the
Coordinator for Counterterrorism.

Providing travel support for the Secretary and other Department principals was
spread throughout S/ES-EX and was taking an increasing toll on the ability of the
various units to perform their other duties. Establishment of a VIP travel unit,
as requested in the office’s FY 2008 Bureau Strategic Plan, would alleviate this
burden. S/ES-EX also needed to strengthen its management controls over the
44          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
billing of the press corps traveling with the Secretary and establish better controls
on overtime usage by its staff.



Inspection of the Florida Regional Center, Fort Lauderdale,
Florida (ISP-I-07-50)

OIG inspected the Florida Regional Center (FRC), a collection of offices from
five bureaus and the U.S. Marine Corps that supports embassies and consulates
throughout the Bureau of Western Hemisphere Affairs (WHA) region. The tenant
offices, collocated at the FRC, are extensions of their parent bureaus located in
Washington, DC. Each office is responsible for administering most aspects of its
own operations. There were no mechanisms in place to promote synergy among
the tenant offices.

The inspection found that the Acting Director of the FRC and the WHA staff in
Fort Lauderdale were effectively supporting regionalization. The FRC
management team had the capacity to supervise additional regional staff, and
the FRC building had space that could be remodeled to accommodate additional
offices. A needs survey and a space management survey were recommended to be
conducted before any construction or remodeling was considered.

The FRC is a key component in carrying out the Department’s regionalization
and rightsizing policies but had not developed and implemented a system for
measuring the effectiveness of its programs. Performance measurement is a key
requirement of the Government Performance and Results Act of 1993. Without
performance data, some important decisions relating to the future expansion of
FRC may be made based on assumptions rather than fact. Through rightsizing
and regionalization, WHA eliminated six direct-hire positions at overseas
embassies. This action improved security by reducing the U.S. presence abroad
and resulted in annual savings of approximately $2 million.

The FRC security program was operating without the benefit of formal standards.
The Bureau of Diplomatic Security’s Office of Domestic Facilities Protection was
tasked to develop specific domestic security standards for the FRC to bring it into
line with other Department operations in the United States.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   45
Summary Review of Public Diplomacy Efforts (ISP-I-07-08)

OIG conducted a summary review of the Department’s public diplomacy efforts,
based in part on material OIG gathered during FY 2005 and FY 2006. The report
stated that the Under Secretary for Public Diplomacy and Public Affairs had
made a personal priority of improving public diplomacy coordination within the
Department and in the interagency process and had made important progress
in this area, including implementing recommendations of the OIG and the
Government Accountability Office.

Public diplomacy strategic planning had improved but could be stronger,
especially at the mission level. The Department had made important, promising
progress in the difficult task of measuring the impact and outcomes of public
diplomacy efforts rather than just totaling public diplomacy activities undertaken,
as has primarily been done in the past. The prospects for further progress were
encouraging.

The need to increase public diplomacy officers’ foreign language capabilities was
a long-term challenge. Public diplomacy officers wanted to expand their foreign
language competencies, and other mission officers said they would like to assist
with public diplomacy outreach but lack sufficient language skills. In general, the
management controls of embassy public affairs programs were found to be good,
but some areas needed improvement. Public affairs sections may also have been
overburdened by the administrative requirements of grants monitoring and may
require additional support.

The Office of Policy, Planning, and Resources for Public Diplomacy and Public
Affairs had worked with a performance measurement consultant to identify 15
performance measurement indicators for public diplomacy programs, and these
should prove useful tools for embassies to engage in quantitative assessment of
their programs.




46         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
   Best Practice: Sharing With Other Posts Documents Translated at
   Post

   Issue: The Bureau of International Information Programs and
   the Office of Language Services cannot fulfill all of the document
   translation needs in the volume, breadth of subject matter, and time
   frame desired by embassies.

   Response: The public affairs sections of embassies in Buenos Aires,
   Argentina, and Santiago, Chile, translate from English into Spanish
   a number of relevant public diplomacy documents and post the
   translations to a list-serve for use by other embassies in the Spanish-
   speaking world.

   Result: Other embassies using this service can save limited resources,
   directing their public diplomacy staffs to other program-related
   activities. The Bureau of International Information Programs and the
   Office of Language Services can redirect their limited resources to
   filling other gaps in the provision of Spanish-language materials to
   embassies in the Spanish-speaking world.




Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   47
OVERSEAS MISSIONS



Inspection of Embassy Khartoum, Sudan, and Constituent Post
(ISP-I-07-23A)

The inspection of Embassy Khartoum reported that the mission effectively
managed a difficult U.S.-Sudanese relationship complicated by an array of factors
including the U.S. government’s sanctions regime, accusations of genocide
against Sudan, and inclusion of Sudan on the list of state sponsors of terrorism.
Despite obstacles thrown up by both the U.S. and Sudanese governments, U.S.
engagement with Sudan was extensive and important, and there was cooperation
on counterterrorism, support for both the African Union and UN missions, and
delivery of humanitarian assistance in the South and Darfur.

The political and bureaucratic jousting between the United States and Sudan
hampered the embassy’s operational effectiveness in such ways as delaying
visa issuance, imposing travel restrictions, and impeding customs clearance.
Furthermore, the lack of a “traditional” Sudan desk within the Bureau of African
Affairs affected the embassy’s capacity to manage some aspects of the bilateral
relationship. The bureau’s Sudan Programs Group and the embassy must work
to strengthen coordination. The consulate general in Juba lacked adequate staff,
facilities, and general services support to be fully effective. The Department must
overcome these shortfalls in Juba.



Inspection of Embassy Nairobi, Kenya (ISP-I-07-29A)

An inspection of this mission found that Embassy Nairobi was ably managing
the broad U.S.-Kenyan relationship while simultaneously overseeing and
coordinating U.S. government priorities in Somalia in a period of crisis and rapid
change. The embassy and the Bureau of African Affairs were establishing a
Somalia unit at Embassy Nairobi that could implement U.S. government policy
toward Somalia and plan for a U.S. presence in Somalia at an as-yet-undetermined
future time. The Department needed to provide for continuity of leadership of
this unit by creating a full-time senior position there. As long as the unit is based
in Nairobi, its leader and staff should remain under chief of mission authority.
Embassy Nairobi had overcome interagency reluctance and had initiated the
consolidation of an administrative support platform for the Department and

48         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
the U.S. Agency for International Development. Despite being built only five
years ago, Embassy Nairobi’s consular area was inadequate. The embassy
had identified possible renovations that would improve its functionality. The
Department should identify funding for this work. With Nairobi as a guide, the
projected increase in consular workload must be considered in consular space
planning worldwide.




Inspection of Embassy Bujumbura, Burundi (ISP-I-07-31A)

In the inspection of Embassy Bujumbura, inspectors reported an urgent need to
relocate the deteriorated and unsafe chancery and general services compound to
a new embassy compound (NEC). The embassy had for some time been seeking
unencumbered land meeting its size and security requirements, but challenges
and obstacles remained. Because a NEC will not be ready for some years,
improvements in the existing buildings were essential.

Embassy Bujumbura was utilizing its limited financial and human resources
effectively to advance the key U.S. policy goals of promoting regional security,
democratic practices, and economic growth. Embassy Bujumbura’s Ambassador
and deputy chief of mission had achieved a major leadership and management
success by rebuilding the embassy staff and maintaining high morale to meet the
demands of the post-conflict expansion of U.S. government activity in Burundi.
The embassy’s American and locally employed staff were working productively
to improve the extremely difficult working environment, which included
inadequate local infrastructure, unsafe working conditions, and a lack of adequate
medical care. The Ambassador maintained a high-priority, well-planned, and
well-executed representational and public diplomacy program that put her and the
embassy staff in frequent contact with a full range of Burundian government, civil
society, and international figures. This effort provided strong, active support for
Burundi’s democratic and economic progress.




Inspection of Embassy Kampala, Uganda (ISP-I-07-30A)

The inspection of Embassy Kampala found that the Ambassador’s management
by objectives provided a clear sense of direction for this organizationally complex
mission, which was playing a major role in advancing regional and continental
stability, promoting development and good governance, and carrying out major
Presidential initiatives on HIV/AIDS and malaria.


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   49
Embassy Kampala was coordinating the full spectrum of mission resources and
personnel across agencies in a creative transformational diplomacy effort that was
building peace in northern Uganda and expanding development throughout the
country. The President’s Emergency Plan for AIDS Relief (PEPFAR) program
carried out by the Centers for Disease Control and Prevention, Peace Corps,
Department of Defense, and others has extended the major progress made in the
rollback of HIV/AIDS. The mission recognized the need to undertake additional
organizational changes to improve PEPFAR coordination and decisionmaking.

The management section was meeting mission needs and was working with the
Ambassador, deputy chief of mission, and senior U.S. Agency for International
Development (USAID) staff to meet the Department’s and USAID’s Joint
Management Council’s requirements to determine the most cost effective
consolidated administrative platform. Reducing local and direct-hire staff was
being considered.

Consolidating the embassy’s warehouse into the U.S. government-owned space
that houses USAID’s warehouse would save nearly $250,000 annually in leased
costs and would eliminate the need for more than $450,000 in security upgrade
costs.




Inspection of Embassy Kigali, Rwanda (ISP-I-07-25A)

OIG inspected Embassy Kigali and found that the plan to relocate to a new
embassy compound by January 2008 and the preparations for the Department and
USAID consolidation by October 2008 required intensified coordination among
embassy elements and strong proactive engagement from the Ambassador and the
deputy chief of mission.

The Ambassador and deputy chief of mission provided strong mission leadership
of the multiagency effort to implement the President’s Emergency Program for
AIDS Relief. The initiative in Rwanda was well managed and achieving its goals
and involved excellent coordination among the Department, USAID, Centers for
Disease Control and Prevention, and Department of Defense.

Embassy Kigali and the Bureau of Democracy, Human Rights (DRL), and Labor
needed a more common appreciation of democratic and human rights practices
in Rwanda. A visit by a regional expert from DRL, at the invitation of Embassy
Kigali, could improve the efficiency and utility of human rights report preparation
and assist the U.S. goal of advancing democratic and human rights in Rwanda.


50         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
The management section had emerged from a difficult period of understaffing
and a lack of experienced personnel. Its management team still faced complex
challenges.



Inspection of Embassy Manila, Philippines (ISP-I-07-36A)

An inspection of Embassy Manila found strong leadership of the mission’s highly
complex and dynamic policy implementation activities. Coordination between
U.S. federal departments and agencies working in the Philippines under chief of
mission authority and those operating under the authority of the U.S. regional
military command was exceptionally close and productive.

The inspectors found that Manila’s consular section was remarkably productive
and service oriented, although the unrelenting visa workload affected staff
morale and limited entry-level officer exposure to a range of embassy activities.
Consular standard operating procedures needed updating. The embassy’s political
and economic reporting both received very high marks from policymakers and
community analysts in Washington.

With strong support from the public affairs section, the Ambassador’s frequent
outreach efforts received high-profile coverage in print and electronic media. This
media coverage has proved a successful method of conveying the mission’s core
messages to millions of Filipinos. Moreover, section officers met the challenges
of a vigorous local press with innovative solutions.

The mission has grown by more than a third since 1999. The National Security
Decision Directive-38 review process was not used effectively and could be more
rigorous. The management section was well managed, provided good services to
its customers, and developed a number of innovative approaches deemed “Best
Practices.” However, its strong infrastructure and abundant resources allowed it
to be less than economical when making some financial decisions.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   51
      Best Practice: External Web Site for Solicitation Requirements
      at Embassy Manila, Philippines

      Issue: The procurement and contracting section completed
      upwards of 6,500 procurement actions in FY 2006. To manage its
      human and financial resources more efficiently, realize savings,
      expand competition, and encourage more vendors to participate in
      solicitations, the procurement and contracting section had to adopt
      digital technology.

      Response: Working in tandem with the Information System Center,
      the section created an external web site where prospective vendors
      could register the services/supplies they offer, download solicitations
      and requests for quotes and amendments, and upload offers of best
      values and updates to company profiles posted previously.

      Result: With the web site, procurement and contracting
      gained substantial savings. Staff hours, advertising, paper, and
      photocopying costs are expected to decline markedly. In addition
      to improved staff productivity and customer service for ICASS
      subscribers, the web site will in time create a database of vendors,
      their fields of expertise, past performance evaluations, and a record
      of previously awarded embassy contracts. This information will
      become invaluable in determining the best vendor for specific
      requirements, such as cost reasonableness and their levels of
      technical capability. As more vendors participate, competition
      will increase, and the automation of vendor reports will help the
      transition to a paperless office.




Inspection of Embassy Phnom Penh, Cambodia (ISP-I-07-24A)

The inspection of Embassy Phnom Penh found the Ambassador and deputy
chief of mission provided active leadership to all embassy elements. High
quality public diplomacy and policy promotion activities were closely targeted
on key goals and objectives. In particular, the relationships the Ambassador had
developed with Cambodia’s leadership had enabled him to lobby assertively for
democratic reforms and improved human rights performance.


52         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
In late 2005, the embassy moved into a spacious new chancery. However,
approval of new direct-hire positions to expand other agency programs in
Cambodia had generated some problems with funding and provision of support to
serviced agencies.

High quality reporting on political and economic developments was well received
by Washington policymakers and analysts. The embassy’s efforts in labor affairs
and the garment sector were outstanding, and they represented a case study in
successful transformational diplomacy.

Public diplomacy activities were woven into all aspects of embassy programmatic
interactions with the Cambodian public. Coordination with public diplomacy
activities conducted by other U.S. government agencies in Cambodia was
productive and mutually supportive.

The consular section was in the midst of an almost complete renewal following
the recent loss of several locally employed staff due to malfeasance, plus
the return of immigrant visa processing after a five-year hiatus. Consular
management had taken important steps toward rebuilding its capacity but has
much more to accomplish.

The management section was very well managed and provided excellent
support to the mission. The mission had done an exemplary job of meeting the
Department’s goals of consolidating administrative services, though the greatest
savings will only be realized when American direct-hire positions are eliminated.
The security and personal security awareness program at Embassy Phnom Penh
was comprehensive and effective.



Inspection of Embassy Baku, Azerbaijan (ISP-I-07-40A)

The inspection of Embassy Baku noted that U.S. relations with Azerbaijan had
intensified and deepened. The Ambassador had gained the confidence of the
country’s leadership and significantly advanced U.S. objectives in the fields of
security, energy, and democratic and economic reform.

There was an exceptionally effective system of interagency coordination at
Embassy Baku. The Ambassador and deputy chief of mission ensured synergy
among programs and activities, drew the most from regional offices, and
heightened attention to Azerbaijan in Washington.


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   53
The ramping up of the bilateral relationship substantially increased the workload
throughout the embassy, and this had a negative effect on morale. Embassy
leadership recognized that the pace since mid-2006 could not be sustained, and
took steps to boost morale, and to reduce workload and prioritize further in the
future.

Inspectors found that administrative operations overall were commendable. There
were some problems, however, in human resources management and management
controls that appeared to have resulted in the embassy’s health insurance
contractor realizing excess profits for the past two years. The embassy had not
energetically pursued the recovery of these excess profits, nor had it renegotiated
the contract to provide for lower initial contributions.

Embassy Baku was grappling with two thorny issues in the financial management
area that required concerted attention by the new management counselor and
deputy chief of mission. The accreditation of locally employed staff and the
taxation of their salaries were serious issues. The embassy needed to find a
way to accredit the locally employed staff to the government of Azerbaijan
and simultaneously regularize their payment of local taxes. The embassy also
needed to work towards a system where local staff could be paid by electronic
fund transfer rather than by cash payroll. Progress depended on reforms in
Azerbaijan’s treasury and banking sectors and required lengthy negotiations.

Embassy Baku’s information management section had adapted a system used
by the Bureau of International Information Programs to streamline the updating
of its classified servers and workstations. This best practice was saving the
embassy work time while reducing the potential for vulnerabilities in its classified
computer systems.




54         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
  Best Practice: Development of Patch Update by Batch System

  Issue: The Department uses a reliable tool called IPost to track the
  application of vulnerability patches to unclassified local area network
  servers and workstations. With the discontinuance of Baseline Tool Kit
  and the inconsistencies of the vulnerability assessment and reporting
  tool for the classified network, it takes extensive staff time to keep the
  vulnerability patch level current on classified workstations and servers.
  Consequently, reporting of vulnerabilities is inconsistent and includes
  many false positives. The classified vulnerability assessment and
  reporting tool is not always kept current on the vulnerability patches,
  creating a vulnerability risk on the classified local area network. The
  information management staff has to visit each workstation physically
  to update patches as a result.

  Response: Embassy Baku obtained a patch update-by-batch system
  used by the Bureau of International Information Programs to install
  and log all patches applied to servers and workstations. Embassy Baku
  modified the patch update-by-batch system, deployed the scheduling
  function, and created the logs to update and log patches on the
  embassy’s classified local area network.

  Result: The patch update-by-batch system increased staff productivity,
  generated vulnerability application information from the logs,
  eliminated redundancy of efforts, and reduced the false positives of
  vulnerability patches on the classified local area network, thus helping
  to eliminate the risk of vulnerabilities. The information technology staff
  does not have to visit each classified workstation or server physically to
  update and verify the application of patches, resulting in a more efficient
  workforce.




Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   55
Inspection of Embassy Tbilisi, Georgia
(ISP-I-07-42A)

An inspection of Embassy Tbilisi found the mission was
succeeding in helping Georgia transform its government
and society and become a model in the region. The
Ambassador and the deputy chief of mission worked
productively with the Georgian leadership to keep
democratic and economic reforms on track and to
address issues related to the separatist conflicts. These
objectives, along with Georgia’s integration with the
West and the promotion of common values, constitute
the Mission Strategic Plan (MSP) priorities.

The extensive U.S. assistance program in Georgia
was carefully organized, nonduplicative, and targeted
towards MSP objectives. Frequent coordination and
working group meetings provided direction as well as              OIG Inspections Team Leader Ambassador
                                                                  Pamela Smith with U.S. Ambassador
rationalization of the assistance activities, both within
                                                                  to Georgia John Tefft during the 2007
the U.S. government and among international donors.               inspection of the U.S. Embassy in Tbilisi

Embassy Tbilisi needed additional personnel in the
political and economic section in order to match the embassy’s MSP goals, which
all require sustained attention from that section. The Office of Inspector General
team endorsed the FY 2009 MSP request for an additional economic officer and
an office management specialist.

Management’s focus on the MSP goals and the move to the new embassy
compound had unintentionally pushed attention to morale – particularly locally
employed staff morale – to the background. Embassy leadership needed to give
priority to workforce retention through a number of initiatives including the
resolution of the real loss in earnings over the past few years.


Inspection of Embassy Caracas, Venezuela (ISP-I-07-28A)

The inspection of Embassy Caracas reported that the Ambassador’s leadership
had kept the U.S. government as effectively engaged as possible in Venezuela.
All nine agency heads at Embassy Caracas credited the effectiveness of the
Ambassador and deputy chief of mission (DCM) with ensuring that each agency
and section had set the proper strategic direction. The embassy’s senior staff
members all viewed the Ambassador as an evenhanded steward of interagency

 56         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
relationships and the country-team process, which maximizes cooperation among
the embassy’s many agencies involved with law enforcement or military issues.
The Ambassador and DCM collaborated with a talented public affairs section
chief and team to ensure the embassy provided minimized responses to the
regime’s provocations and chose the issue, time, and locale for delivering the
message. The embassy could achieve major savings through the use of the legal,
parallel-exchange rate and the melding of the narcotics affairs and political
sections.



Inspection of U.S. Interests Section Havana, Cuba (ISP-I-07-27A)

In the inspection of U.S. Interests Section Havana (USINT), OIG reported that the
Chief of Mission and deputy chief of mission were working effectively to provide
a management platform for the key objectives of democracy promotion and
migration, despite poor Cuban infrastructure and official hostility. In seeking to
ready USINT for possible rapid expansion, the Chief of Mission and deputy chief
of mission have been imaginative in developing a realistic planning scenario.

The public affairs section was managing innovative and effective outreach,
training, and broadcast monitoring programs despite the constraints of operating
in Cuba, but staffing gaps limited the possibilities for program expansion. The
political and economic reporting of USINT Havana was of high quality, but
expansion of the mission’s contact base would be useful. Law enforcement,
military-to-military, and counternarcotics cooperation with Cuba was minimal;
however, migration control operations between the U.S. Coast Guard, USINT, and
the Cuban government were satisfactory.

Restrictions imposed on Cuban diplomats in Washington and New York, and
outreach activities in Cuba that provoked Cuban government ire, triggered
retaliatory measures that complicate USINT’s ability to carry out some of its core
functions.




Inspection of Port-au-Prince, Haiti (ISP-I-07-39A)

OIG’s inspection of Embassy Port-au-Prince noted that the relationship the
Ambassador had developed with Haiti’s political leadership had enabled her to
lobby assertively for reforms and respect for human rights.



  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   57
In 2008, all mission elements will move to a well-designed and spacious new
chancery for which the Bureau of Overseas Buildings Operations deserved praise.
Planning by mission components for the move and consolidation with the USAID
mission on administrative support was just starting. Consolidating all mission
elements on one new embassy compound, coupled with merging Department and
USAID administrative services, should result in reduced staffing and cost savings,
particularly in the local guard program.

Reporting on political developments was high quality and well read by
Washington policymakers and analysts. Staffing gaps in the economic section
required reorganization to better cover reporting on trade and investment. Public
diplomacy activities needed to be expanded and coordinated with all agencies to
publicize American policy and assistance programs. The consular section was
well staffed and well led. Some internal controls on files and cashiering needed to
be strengthened, and careful planning needed to begin for the move to the NEC.
There was a marked improvement in administrative operations since the Office of
Inspector General inspection of 2000. The locally employed staff was proficient
and professional.

Security concerns affected everyone at the mission. Embassy Port-au-Prince
had correctly focused its efforts toward protecting embassy personnel and their
families against the critical crime environment in Haiti that posed the most serious
and immediate day-to-day threat. Violent crime was pervasive.




INFORMATION TECHNOLOGY

Protecting personally identifiable information, sensitive information, information
related to national security, and information systems continues to receive
significant congressional and executive management attention. With the passing
of the E-Government Act, Congress formally recognizes the importance that it
plays in protecting national security and the economic interests of the United
States. More specifically, the Federal Information Security Management Act
(FISMA), requires federal agencies to develop, document, and implement a




58         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
comprehensive plan to protect the confidentiality, integrity, and availability of
mission critical information and systems. In response to FISMA, OIG performed
an independent evaluation of the information security program of the Department
for sensitive compartmented information networks (IT-07-01). This report is
summarized in the classified annex to this semiannual report.

During this semiannual reporting period, the OIG Office of Information
Technology (OIG/IT) worked with the OIG Office of Inspections as part of
larger multidisciplinary teams inspecting embassies in the Bureaus of African
Affairs, East Asian and Pacific Affairs, and Western Hemisphere Affairs, as
well as several domestic bureaus. Overseas embassies inspected included U.S.
missions and consulates in Uganda, Rwanda, Burundi, Cuba, Venezuela, Sudan,
Kenya, Philippines, Azerbaijan, Georgia, and Cambodia. Additionally, OIG/IT
inspected the Executive Office of the Bureau of Administration and the Office
of Coordinator for Stabilization and Reconstruction. Information management
and information security operations were evaluated to assess their effectiveness.
As a result, a number of issues requiring attention and action by the Department
were identified, resulting in recommendations being issued. These included, but
were not limited to, the development and review of service level agreements for
consolidated IT support, standardized training program for IT staff, change control
management for hardware and software deployment, review of submissions for
dedicated internet networks at embassies, and the usage of the Department’s
helpdesk ticket system.

During this semiannual review cycle, OIG recommendations prompted the
Department to respond with several actions for correcting deficiencies noted in
the evaluation and inspection reports. Many involved initiatives and development
of project teams addressing issues such as IT training, dissemination of additional
information on standardizing the helpdesk process and change control board
request procedures. Additionally, discussions were held regarding standardization
and regionalization of IT support services.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   59
60   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                          INVESTIGATIONS


VISA MALFEASANCE OR FRAUD

OIG initiated an investigation based upon a request for assistance from the
Federal Bureau of Investigation, Miami Field Office, in a matter involving
involuntary servitude. The case involved a Haitian national who was taken
from an orphanage as a minor and trafficked to the United States to be used as
a domestic servant and not paid for services rendered. The activity occurred
over a six-year period until the victim, who did not receive proper schooling and
was held in inhuman conditions, escaped from the captors. OIG assisted the
investigation by obtaining the victim’s visa records as well as the passport records
of the subjects. The photographs in the passport applications were used by the
FBI to help the victim identify the subjects. On April 19, 2007, both subjects
were indicted on three counts, including charges of forced labor and harboring
illegal aliens. The subjects were arrested by the FBI the following day. The
defendants are awaiting trial scheduled for January 22, 2008.



OIG conducted a joint investigation with the Labor Department, Office of
Inspector General; the Department of Homeland Security, Bureau of Immigration
and Customs Enforcement, and the State Department, Bureau of Diplomatic
Security (DS), of a construction company allegedly committing employment
based visa fraud by filing labor certifications for workers they did not intend to
employ. The investigation determined that the company filed more than 65 labor
certifications for foreign workers, many of whom never worked for the company,
and paid in excess of $20,000 for their labor certifications. The president of the
construction company pleaded guilty to one count criminal information charging
the subject with conspiracy to commit visa/immigration fraud and making false
statements. The company president also agreed to an order of forfeiture in the
amount of $250,000 and is scheduled to be sentenced on October 19, 2007.
On September 12, 2007, the company vice president and another co-conspirator
were indicted on charges of conspiracy to commit visa/immigration fraud and
false statements, visa/immigration fraud, conspiracy to encourage an alien to
unlawfully reside in the United States, and bringing to the United States an alien
without official authorization to enter. In addition, the vice president was charged
with obstruction of justice.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   61
OIG conducted a joint investigation with the Labor Department, Office of
Inspector General; the U.S. Department of Homeland Security, Bureau of
Immigration and Customs Enforcement; and the Internal Revenue Service,
Criminal Investigations Office of an immigration and tax preparation company
allegedly committing employment-based visa fraud. The investigation
determined that the company fraudulently filed numerous labor certifications for
foreign workers on behalf of current and former clients without their knowledge.
Both the owner and office manager of the company pleaded guilty to one-count
criminal informations charging them with conspiracy to commit visa/immigration
fraud. The company owner also agreed to an order of forfeiture in the amount of
$275,000. The owner is scheduled to be sentenced on November 30, 2007, and
the office manager is scheduled to be sentenced on December 21, 2007.



PASSPORT FRAUD

As part of the Passport Sentinel initiative, OIG/INV conducted a joint
investigation with the Bureau of Diplomatic Security of a private citizen in
California who fraudulently obtained a valid U.S. passport using the name and
Social Security number of a deceased infant. The individual was found guilty by
jury trial of making a false statement on a U.S. passport application and sentenced
to nine months incarceration, to be followed by two years supervised release.



As part of the Passport Sentinel initiative, OIG conducted an investigation of
a private citizen in Florida who fraudulently obtained a valid U.S. passport
using the name and Social Security number of a deceased infant. On August
23, 2007, the subject was indicted on two counts for making false statements on
her application for a U.S. passport and application for citizenship. OIG agents
arrested the subject on August 23, 2007, at the subject’s place of business and
made her initial appearance on August 24, 2007, where she entered a plea of “not
guilty” and requested a jury trial.

EMPLOYEE MISCONDUCT

OIG/INV conducted an investigation of a Department employee who was
operating a resume writing service from a government office on government time
using government resources. Interviews with several Department employees
revealed that they paid the subject up to $80 to prepare resumes to apply for
government jobs. Forensic analysis of the subject’s government computer


62         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
revealed that nine employee resumes and related documentation had been
prepared on the computer. When interviewed, the subject admitted to sending
the resumes out via the subject’s government e-mail account but denied preparing
the resumes on the government computer. The case was declined for criminal
prosecution, and OIG submitted a report of investigation to the Bureau of
Human Resources (HR) for administrative action. HR is reviewing the report of
investigation to determine the appropriate administrative action.

EMBEZZLEMENT

OIG/INV conducted an investigation into allegations that a former Department
contractor had manipulated the Travel Manager system to receive travel
reimbursement payments in excess of $54,000. Subsequent investigation
determined that the contract employee had created a travel profile for a
nonexistent employee and had received travel advances in the amount of $57,496
to which the subject was not entitled. When interviewed, the former contract
employee confessed to the embezzlement. The former contract employee pleaded
guilty to a one-count criminal information charging the subject with theft of
public money and on June 26, 2007, was sentenced to five years probation and
ordered to pay restitution to the Department in the amount of $57,496.

FOLLOW UP ACTIONS

Embezzlement

OIG conducted an investigation into allegations that a Department employee
embezzled $48,300 through travel advances she obtained in the names of several
authorized travelers without their permission or consent. When interviewed, the
employee confessed to the embezzlement. However, OIG’s investigation, with
the assistance of the Office of Audit and Department officials, determined that the
employee actually embezzled over $103,000 through the travel advance scheme.
On July 17, 2006, DS suspended the subject’s security clearance. On December
20, 2006, the subject officially resigned from her position at the Department.

On January 8, 2007, the subject pleaded guilty in U.S. District Court for the
District of Columbia to one count of embezzlement. On September 4, 2007, the
subject was sentenced to 15 months imprisonment, 36 months supervised release
(probation), and was ordered to repay $103,000 in restitution to the U.S. Treasury
for credit to the Department’s Office of International Conferences.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   63
Impersonation of an Ambassador

OIG opened an investigation concerning allegations that a resident of the U.S.
Virgin Islands was impersonating U.S. government officials, illegally obtaining
services including motorcades and police protection, and attempting to illegally
obtain diplomatic passports and other official U.S. government credentials. On
September 6, 2005, OIG and agents from the Bureau of Diplomatic Security
and the Department of Homeland Security Office of Inspector General arrested
the subject for impersonating a U.S. ambassador and using fraudulent State
Department credentials. The subject was charged in federal court with one count
of impersonating a U.S. government official and one count of misuse of an official
pass or permit.

On June 6, 2007, the subject entered a pretrial diversion under which the subject
was prohibited from violating any federal, state, or local laws; sentenced to serve
18 months probation; and prohibited from using any diplomatic titles unless
legally authorized to do so.



PROACTIVE INITIATIVES

As a result of the investigations conducted by OIG/INV involving the
unauthorized resale of employee Metrocheks, the Department issued two
Department Notices to employees regarding eligibility and proper use of
Metrocheks and forwarded to the Department of Transportation the complete
list of Department carpool and vanpool members with a request to cross-check
the names against Metrochek participants. From these lists, 126 Department
employees were identified as being enrolled in both the Metrochek and parking
permit/car or van pool programs. INV is coordinating with HR to determine why
these employees were receiving both benefits and will continue to work with the
Department to identify and investigate any further abuses.

As a result of OIG’s inspection of A/LM/OPS, OIG/INV was invited to be a non-
voting member of the Department Property Survey Board chaired by the Director
of the Office of Program Management and Policy. INV has added value to the
Department’s property program by bringing together the Commerce Department’s
Office of Export Control (OEE) and A/LM/PMP to partner proactively on
educating Department personnel about OEE licensing requirements particularly
with respect to disposal of damaged, surplus and obsolete items at embassies. A/
LM/PMP is partnering with OEE and OIG/INV in a series of educational actions.



64         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
  Types of Cases




Hotline

Held for action within OIG                          35
Referral to other offices for action               155
No action Necessary                                 69
Total Allegations received                         259




Hotline

Held for action within OIG                           35
Referral to other offices for action                155
No action Necessary                                  69
Total Allegations received                          259




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   65
66   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES


      Criminal Investigative Activities

      Indictments/Informations                                                      9
      Convictions                                                                   7
      Sentencings                                                                   5
                 -Jail                                                              36 Months
                 -Probation                                                         150 Months
      Referrals for Prosecution                                                      5
      Referrals for Prosecution Declined                                             2
      Criminal Judgments/Restitutions                                               $706,680.66

      Civil Investigative Activities

      Civil Referrals                                                                 2
      Civil Declinations                                                              2
      Civil Recoveries                                                                0

      Administrative Investigative Activities

      Administrative Referrals                                                        4
      Personnel Actions
               -Removals                                                              3
               -Suspensions                                                           0
               -Reprimands/Admonishments                                              0
               -Reimbursements
                                                                                      0
      Administrative Recoveries                                                       0
      Total Investigative Recoveries (Judicial and Administrative)                    $706,680.66

      Investigative Workload

      Cases Pending (03/31/07)                                                      63
      New Cases Opened                                                              12
      Cases Closed                                                                  24
      Cases Pending (9/30/07)                                                       51
      Preliminary Inquiries Pending (03/31/07)                                       7
      Preliminary Inquiries Opened                                                  19
      Preliminary Inquiries Closed                                                  23
      Preliminary Inquiries Converted to Cases                                       2
      Preliminary Inquiries Pending (09/30/07)                                       3

        Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   67
68   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
               APPENDIX 2: REPORTS ISSUED


                                          AUDITS

AUD/FM-07-11                     Management Letter Related to the Audit of
                                 the Department of State’s Restated 2006
                                 and 2005 Financial Statements

AUD/CG-07-21                     Independent Accountants’ Report on the
                                 Application of Agreed-Upon Procedures
                                 on Indirect Cost Rates Proposed by The
                                 International Center

AUD/CG-07-22                     Independent Accountants’ Report on the
                                 Application of Agreed-Upon Procedures
                                 on Indirect Cost Rates Proposed by U.S.
                                 Civilian Research and Development Foundation

AUD/CG-07-23                     Independent Accountants’ Report on the
                                 Application of Agreed-Upon Procedures on
                                 Indirect Cost Rates Proposed by Woodrow
                                 Wilson International Center for Scholars

AUD/CG-07-24                     Independent Accountants’ Report on the
                                 Application of Agreed-Upon Procedures on
                                 Indirect Cost Rates Proposed by Sabre
                                 Foundation, Inc.

AUD/FM-07-28                      Procurement Practices at Embassy Berlin

AUD/CG-07-29                     Independent Accountants’ Report on the
                                 Application of Agreed-Upon Procedures on
                                 Costs Claimed by Atlantic Corridor, U.S.A., Inc.,
                                 Under Department of State Grants

AUD/CG-07-31                     Independent Accountants’ Report on Application
                                 of Agreed-Upon Procedures on Indirect Cost Rates
                                 Proposed by International Research and Exchanges
                                 Board

AUD/CG-07-33                     Audit of the National Endowment for Democracy


 Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   69
AUD/CG-07-34                   Independent Accountants’ Report on the
                               Application of Agreed-Upon Procedures on
                               Indirect Cost Rates Proposed by Maureen and Mike
                               Mansfield Foundation

AUD/FM-07-35                   Information Technology Assessment of the
                               Consolidated American Payroll Processing System

AUD/CG-07-37                   Independent Accountants’ Report on the
                               Application of Agreed-Upon Procedures on Costs
                               Claimed by Meridian International Center Under
                               Department of State Cooperative Agreements

AUD/FM-07-38                   Assessment of Information System Controls for
                               the Foreign Service National Payroll System

AUD/FM-07-39                   Independent Auditor’s Report on the Foreign
                               Service Retirement and Disability Fund’s 2006,
                               2005, and 2004 Financial Statements

AUD/FM-07-40                   Management Letter Related to the Audit of the
                               Foreign Service Retirement and Disability Fund’s
                               2006, 2005, and 2004 Financial Statements

AUD/FM-07-41                   Independent Auditor’s Report on the Application
                               of Agreed-Upon Procedures Related to Selected
                               DynCorp Invoices

AUD/FM-07-42                   Management Letter Related to the Audit of the
                               International Boundary and Water Commission,
                               United States and Mexico, U.S. Section’s 2006
                               and 2005 Financial Statements

AUD/FM-07-43                   Independent Auditor’s Report on the International
                               Boundary and Water Commission, United States
                               and Mexico, U.S. Section’s 2006 and 2005
                               Financial Statements

AUD/IP-07-44                   Compliance Follow-up Review on Export Controls




70       Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
AUD/CG-07-45                       Independent Accountants’ Report on the
                                   Application of Agreed-Upon Procedures on
                                   Indirect Cost Rates Proposed by National Strategy
                                   Information Center, Inc.

AUD/IP-07-47                       Return-to-Work: An Important Program for the
                                   Department of State To Implement

AUD/IQO-07-48                      Accounting for Government-Owned Personal
                                   Property Held by Selected Contractors in
                                   Afghanistan

AUD/FM-07-50                       Independent Accountant’s Report on the
                                   Application of Agreed-Upon Procedures:
                                   Retirement, Health Benefits, and Life Insurance
                                   Withholdings/Contributions and Supplemental
                                   Semiannual Headcount Report Submitted to the
                                   Office of Personnel Management


                                          INSPECTIONS

ISP-I-07-08                        Summary Review of Public Diplomacy Efforts

ISP-I-07-16                        Inspection of the Bureau of Human Resources

ISP-I-07-21                        Inspection of the Bureau of Administration’s
                                   Office of Logistics Operations and Office of
                                   Program Management and Policy

ISP-I-07-23A                       Inspection of Embassy Khartoum, Sudan, and
                                   Constituent Post

ISP-I-07-24A                       Inspection of Embassy Phnom Penh, Cambodia

ISP-I-07-25A                       Inspection of Embassy Kigali, Rwanda

ISP-I-07-26                        Inspection of Office of the Coordinator for
                                   Reconstruction and Stabilization

ISP-I-07-27A                       Inspection of U.S. Interests Section Havana,
                                   Cuba


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   71
ISP-I-07-28A                    Inspection of Embassy Caracas, Venezuela

ISP-I-07-29A                    Inspection of Embassy Nairobi, Kenya

ISP-I-07-30A                    Inspection of Embassy Kampala, Uganda

ISP-I-07-31A                    Inspection of Embassy Bujumbura, Burundi

ISP-I-07-33                     Inspection of the Bureau of Administration, Executive
                                Office

ISP-I-07-34                     Interagency Assessment of the Counternarcotics
                                Program in Afghanistan

ISP-I-07-36A                    Inspection of Embassy Manila, Philippines

ISP-I-07-38                     Inspection of the Office of the Executive Director,
                                Executive Secretariat

ISP-I-07-39A                    Inspection of Port-au-Prince, Haiti

ISP-I-07-40A                    Inspection of Embassy Baku, Azerbaijan

ISP-I-07-42A                    Inspection of Embassy Tbilisi, Georgia

ISP-I-07-45                     Inspection of the Bureau of Human Resources,
                                Part II

ISP-I-07-50                     Inspection of the Florida Regional Center, Fort
                                Lauderdale, Florida

SIA-I-07-01                     Review of Department Headquarters’
                                Implementation of Cellular Telephone Security
                                Policies

INFORMATION TECHNOLOGY

IT-I-07-01                      Review of the Information Security Program for
                                Sensitive Compartmented Information Systems at
                                the Department of State



72           Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
SECURITY ANNEXES

ISP-S-07-23A                   Classified Annex to the Inspection of Embassy
                               Khartoum, Sudan

ISP-S-07-24A                   Classified Annex to the Inspection of Embassy
                               Phnom Penh, Cambodia

ISP-S-07-25A                   Classified Annex to the Inspection of Embassy
                               Kigali, Rwanda

ISP-S-07-27A                   Classified Annex to the Inspection of U.S. Interests
                               Section Havana, Cuba

ISP-S-07-28A                   Classified Annex to the Inspection of Embassy
                               Caracas, Venezuela

ISP-S-07-29A                   Classified Annex to the Inspection of Embassy
                               Nairobi, Kenya

ISP-S-07-30A                   Classified Annex to the Inspection of Embassy
                               Kampala, Uganda

ISP-S-07-31A                   Classified Annex to the Inspection of Embassy
                               Bujumbura, Burundi

ISP-S-07-36A                   Classified Annex to the Inspection of Embassy
                               Manila, Philippines

ISP-S-07-39A                   Classified Annex to the Inspection of Embassy
                               Port-au-Prince, Haiti

ISP-S-07-40A                   Classified Annex to the Inspection of
                               Embassy Baku, Azerbaijan

ISP-S-07-42A                   Classified Annex to the Inspection of
                               Embassy Tbilisi, Georgia




 Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   73
74   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES


                                         Table 1
                         INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                                    1  4
                                WITH QUESTIONED COSTS


                                       Number of Reports         Question Costs      Unsupported Costs
                                                                  (Dollars in        (Dollars in Thousands)
                                                                  Thousands)
           A. For which no                      4                   $11,467                   $1,341
           management decision
           has been made by the
           commencement of the
           reporting period
           B. Which were issued                 4                   $40,654                  $37,590
           during the reporting
           period
           C. For which a                       1                    $11,515                 $11,515
           management decision was
           made during the reporting
           period
           D. For which no                      7                   $40,606                  $27,416
           management decision has
           been made by the end of
           the reporting period
           Reports for which no                 2                    $1,438                   $1,341
           management decision was
           made within 6 months of
           issuance




       1
        Questioned costs that are questioned by the OIG because of an alleged violation of a provision
       of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
       governing the expenditure of funds; a finding that, at the time of audit, such costs are not supported
       by adequate documentation; or finding that the expenditure of funds for the intended purpose is
       unnecessary or unreasonable

            Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   75
                                                Table 2

       INSPECTOR GENERAL ISSUED AUDIT REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE2


                                                   Number of Reports        Dollar Value (in
                                                                              thousands)
    A. For which no management decision has                1                    $5,900
    been made by the commencement of the
    reporting period
    B. Which were issued during the reporting              1                      $48
    period

    Subtotals (A+B)                                        2                    $5,948
    C. For which a management decision was                 1                    $5,900
    made during the reporting period
    (i) dollar value of recommendations that               1                    $5,900
    were agreed to by management
    -based on proposed management action
    -based on proposed legislative action                                          0
    (ii) dollar vallue recommendations that were           0
    not agreed to by management
    D. For which no management decision                    1                      $48
    has been made by the end of the reporting
    period
    Reports for which no management decision               0                       0
    was made within 6 months of issuance




2
 A recommendation that funds be put to better use is a recommendation by the OIG that
funds could be used more efficiently if Department management took actions to implement
and complete the recommendations, including: reductions in outlays, deobligation of funds
from programs or operations; withdrawal of interest subsidy costs on loans or loan guarantees,
insurance, or bonds; costs not incurred by implementing recommended improvements related
to the operations of the Department, a contractor, or a grantee, avoidance of unnecessary
expenditures noted in preaward reviews of contract or grant agreements; or any other savings
which are specifically identified.

    76          Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS




    Section 5 (a)(3) of the Inspector General Act, as amended, requires identification
    of each significant recommendation described in previous semiannual reports
    that the Department has agreed to implement but for which corrective action
    has not yet been completed. OIG continues to work with the Department toward
    completion of the corrective actions required on these recommendations.

    Significant Recommendations Pending Final Action

    Report                Rec.                Title                            Date Issued
    Number                Number

    Audits

    AUD/CG-02-44          1             Awards to the Iraqi                               10/2002
                                        National Congress

    OIG recommended that the A/LM/AQM grants officer, in coordination with
    the Bureau of Near Eastern Affairs, should withhold, or at least restrict, future
    funding to the Iraqi National Congress Support Foundation until the Foundation
    has implemented adequate and transparent financial controls.

    AUD/CG-04-31         1              Application of Agreed-Upon Procedures on
                                        Indirect Cost Rates Proposed by National
                                        Council for International Visitors
                                        (NCIV)                                 10/2002

    OIG recommended that a Department of State, Bureau of Administration, Office
    of Acquisition grants officer require NCIV to exclude such unallowable costs
    from its future indirect cost proposals. OIG recommended, further, that the grant
    officer ensure that NCIV adjust its cumulative cost reporting.




      Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   77
AUD/FM-05-06        1            Assessment of the Certification and
                                 Accreditation, Change Management, and Patch
                                 Management Process                   12/2004

OIG recommended that the Bureau of Information Resource Management revise
the security test and evaluation of the certification and accreditation process to
include a complete vulnerability scan of the systems being assessed.

AUD/CG-06-26        1              Choctaw Archiving Enterprise’s Proposed
                                   Direct Labor and Indirect Labor Rates
                                                                         05/2006

OIG recommended that the Department’s, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management use the recommended
rates set forth in Schedule A-2 to price delivery orders that Choctaw will perform
under the proposed contract.


Inspections

ISP-I-07-12         5               Inspection of the Bureau of Administration’s
                                    Office of the Procurement Executive, Office
                                    of Acquisitions Management, and Office of
                                    Small and Disadvantaged Business Utilization
                                                                          12/2006

In its inspection, OIG recommended that the A Bureau, in coordination with
DS, establish a plan to progressively consolidate local guard contracting in the
Office of Acquisitions Management. A/LM and DS are working to identify
issues, develop solutions, and determine if centralization of local guard program
contracts would substantially benefit the Department.




78         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
Significant Management Success in Resolving and Implementing
Recommendations

Inspection of Global Financial Services – Charleston (GFS-C) (ISP-I-06-33,
Issued June 2006)

In the Inspection of GFS-C, OIG recommended that the Bureau of Resource
Management (RM) review the differences in the Fund Balance with Treasury
Accounts, reconcile the differences from prior fiscal years, and report the changes
to the Treasury. The Department responded by making permanent adjustments
to its reconciliation procedures including: 1) Greater emphasis on root cause
analysis and identification of long-standing systemic issues (2) Improved
collaboration with other financial operations and financial systems offices; and
(3) Coordination of analyses with the Treasury Statement of Differences project.
RM’s revised approach more correctly takes into account issues that contributed
to original and current imbalances with the Treasury.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   79
80   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
81
 Broadcasting Board of Governors
82   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                                                            October 31, 2007

MEMORANDUM

TO:            Mr. James K. Glassman, Chairman
               Broadcasting Board of Governors

FROM:          OIG – Howard J. Krongard
               Inspector General

SUBJECT:       Semiannual Report to Congress, April 1,
               to September 30, 2007


I am pleased to transmit to you the Office of Inspector General’s (OIG) Semiannual Report to the
Congress for the period ending September 30. This report is required by the Inspector General
Act of 1978, as amended, and covers the work of this office during the period indicated. The Act
requires that you transmit the report to the appropriate committees of the Congress by Novem-
ber 30, together with any comments you may wish to make.

During this reporting period, OIG inspected the BBG’s Office of Cuba Broadcasting and BBG’s
Operations in Russia, as well as the International Broadcasting Bureau’s Philippines Transmitting
Station.

This and other activities are summarized in this report.
84   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                            INSPECTIONS




Inspection of the Office of Cuba Broadcasting (ISP-IB-07-35)

The Office of Cuba Broadcasting (OCB) had significantly improved its
broadcasting operations under the current director and with the support of the
Broadcasting Board of Governors (BBG) and the International Broadcasting
Bureau (IBB). The director and his senior staff had implemented an
organizational realignment that combined the radio and television components of
OCB and streamlined its operations. This reorganization had facilitated efforts to
improve the quality of broadcasts.

IBB quality reviews showed that radio and television broadcasts had markedly
improved over the past two years in production quality and content. Greater
emphasis was needed on internal quality control to ensure editorial standards
were followed. The introduction of new technology allowed OCB to broadcast
television signals live into Cuba using airborne platforms. These continuously
moving aircraft make it significantly more difficult for the Cuban government
to jam or disrupt the signal. Indications were that more Cubans were watching
Television Marti broadcasts, and OCB had increased the quantity of daily
programs.

The airborne platforms concept was originated by the technical operations
staff at OCB. Now operational, this innovative approach has applications for
transmitting broadcast signals into other hostile theaters of operation. The
OIG team considered the use of an airborne platform, Aero Marti, to be a Best
Practice.

As Cuba transitions from the Fidel Castro regime, OCB will be challenged to
continually produce high-quality programs that meet the informational and
entertainment needs of the diverse Cuban populace. What was missing was a
long-term strategic plan to anticipate the future needs of the Cuban audience,
provide a template for competing with commercial broadcasters, and address
what to do with OCB and its broadcasting facilities if and when uncensored
broadcasting is allowed inside a democratic Cuba.

The responsibilities of many employees had changed, and some position
descriptions were out of date. OCB needed a detailed position classification
review, a formal awards and recognition program, greater training opportunities,


  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   85
and enhanced efforts to improve communication through such mechanisms such
as a monthly electronic newsletter.



Inspection of the Broadcasting Board of Governors Operations in
Russia (ISP-IB-07-32)

BBG carried out significant and diverse programs in Russia. Radio Free
Europe/Radio Liberty (RFE/RL), an International Broadcasting Bureau (IBB)
marketing office, and Voice of America (VOA) had well-run offices in Moscow,
and networks of freelancers across Russia were committed to achieving BBG
objectives.

BBG broadcasting was losing its access to the Russian people due to changes in
media trends and to subtle pressure from the authorities to discourage Russian
radio and television stations from hosting foreign programming. In addition,
shortwave listenership was rapidly declining. VOA’s Russian news service
was shifting from radio to television as a more effective way to reach a wider
audience, but it was increasingly difficult to find stations that will place BBG
programs.

IBB recruited affiliate stations to rebroadcast VOA and RFE/RL products.
Russian authorities who license and tax broadcasters were discouraging potential
affiliates from rebroadcasting BBG material. The three dozen BBG affiliates of a
few years ago were reduced to four. The embassy was working with BBG on this
issue.

Keeping Russian staff was a growing challenge because comparable jobs in the
Russian electronic media had better salary and benefit packages and because of
a perception that working for U.S.-funded media can mean blacklisting in the
domestic market.




86         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
Inspection of International Broadcasting Bureau’s Philippines
Transmitting Station (ISP-IB-07-37A)

The Philippines Transmitting Station was effectively operating two sites
located 115 miles apart that send medium wave and short wave broadcasts. An
authorized, but vacant, American direct-hire position for a transmitting plant
supervisor was unneeded due to technological advances allowing the Poro site
to be operated remotely from the Tinang site. The responsibilities of the Asia
regional resource management specialist, located at the chancery compound in
Manila, could be successfully conducted in Washington. This position should be
relocated to Washington. The information technology support staff recognized
how critical they were to the worldwide mission of the IBB and were providing
quality support not only to the Philippines but to the other stations of East Asia,
the Pacific region, and Kuwait.

The classified annex to the Inspection of International Broadcasting Bureaus’s
Philippines Transmitting Station report is summarized in the classified semi-
annual report.




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   87
88   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                          INVESTIGATIONS



FOLLOW UP ACTIONS

Conflict of Interest

OIG conducted a joint investigation with the Federal Bureau of Investigation into
allegations of possible kickbacks being received by a BBG employee from two
vendors. The employee was interviewed and confessed to improperly receiving
payments from two vendors and knowing that it was a conflict of interest. On
November 16, 2006, the employee was indicted on one count of conflict of
interest and three counts of making false statements. The employee was arrested
the next day and placed on indefinite suspension without pay pending the outcome
of the case.

On February 13, 2007, the subject pleaded guilty to the conflict of interest charge,
and admitted to knowingly and willfully receiving unauthorized payments from
the vendors in the amount of approximately $112,000. On March 20, 2007,
the BBG sent a letter of termination to the employee. On April 18, 2007, the
employee was sentenced to 27 months imprisonment, three years probation, a
$5,000 fine and an additional $3,000 in legal fees for the court-appointed attorney.
(See OIG Semiannual Report, October 1, 2006, to March 31, 2007, pp 69-70)




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   89
90   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS
           INVESTIGATIVE ACTIVITIES

  Investigative Workload                       Number

  Cases pending 3/31/07                                 5
  New cases opened                                      2
  Cases closed                                          1
  Cases pending 9/28/07                                 6

  Preliminary inquiries pending 3/31/07                 1
  Preliminary inquiries opened                          1
  Preliminary inquiries closed                          0
  Preliminary inquiries converted to cases              0
  Preliminary inquiries pending 9/28/07                 2

  Total Judicial Actions                                2

  Prosecutive Referrals                              1
  Prosecutive Declination                            0
  Criminal Indictments/Arrests                       0
  Criminal Convictions                               0
  Criminal Sentencings                               1
  Time Sentenced                             27 Months
  Time Probation                             36 Months
  Court Ordered Fine                            $5,000
  Court Ordered Restitution                     $3,000

  Administrative Investigative Activities

  Personnel Actions

  -Referrals                                            2
  -Removals                                             1
  -Suspensions                                          0
  -Reprimands/Admonishments                             0
  -Reimbursements                                       0
  -Administrative Recoveries                            0


  Total Investigative Recoveries                 $8,000




    Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   91
92   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
            APPENDIX 2: REPORTS ISSUED




ISP-IB-07-32                      Inspection of the Broadcasting Board of Governors
                                  Operations in Russia

ISP-IB-07-35                      Inspection of the Office of Cuba Broadcasting

ISP-IB-07-37A                     Inspection of International Broadcasting Bureau’s
                                  Philippines Transmitting Station

ISP-IB/S-07-37A                   Classified Annex to the Inspection of International
                                  Broadcasting Bureau’s Philippines Transmitting
                                  Station




  Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   93
94   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF
                  RESOURCES

                                              Table 1
                              INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                      WITH QUESTIONED COSTS 3


                               Number of            Question Costs            Unsupported Costs
                               Reports              (Dollars in Thousands)
       A. For which no                 0                       0                         0
       management decision
       has been made by the
       commencement of the
       reporting period
       B. Which were issued            0                       0                         0
       during the reporting
       period
       C. For which a                  0                       0                         0
       management decision
       was made during the
       reporting period

       D. For which no                 0                       0                         0
       management decision
       has been made by the
       end of the reporting
       period
       Reports for which no            0                       0                         0
       management decision
       was made within 6
       months of issuance




   3
    Questioned costs that are questioned by the OIG because of an alleged violation of a provision of a law,
   regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
   of funds; a finding that, at the time of audit, such costs are not supported by adequate documentation; or finding
   that the expenditure of funds for the intended purpose is unnecessary or unreasonable


       Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   95
                                             Table 2

       INSPECTOR GENERAL ISSUED AUDIT REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE4


                                              Number of Reports         Dollar Value (in
                                                                          thousands)
    A. For which no management decision                0                       0
    has been made by the commencement of
    the reporting period
    B. Which were issued during the                    0                       0
    reporting period
    C. For which a management decision was             0                       0
    made during the reporting period
    D. For which no management decision                0                       0
    has been made by the end of the
    reporting period
    Reports for which no management                    0                       0
    decision was made within 6 months of
    issuance




4
 A recommendation that funds be put to better use is a recommendation by the OIG that
funds could be used more efficiently if Department management took actions to implement
and complete the recommendations, including: reductions in outlays, deobligation of funds
from programs or operations; withdrawal of interest subsidy costs on loans or loan guarantees,
insurance, or bonds; costs not incurred by implementing recommended improvements related
to the operations of the Department, a contractor, or a grantee, avoidance of unnecessary
expenditures noted in preaward reviews of contract or grant agreements; or any other savings
which are specifically identified.

    96         Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
    APPENDIX 4: RESOLUTION OF REPORTS AND
              RECOMMENDATIONS



Significant Recommendations Pending Final Action

There are no significant recommendations identified in the previous SAR that BBG has agreed to
implement but for which corrective action has not been completed.




Significant Management Success in Resolving and Implementing
Recommendations

Inspection of the International Broadcasting Bureau’s Office of Engineering and Technical
Services (Report No. ISP-IB-07-03, October 2006)

In its inspection, OIG recommended that the IBB’s Office of Engineering and Technical Services
develop and implement a plan of actions to emphasize the internal and external communications
of ideas, goals and current tasks. IBB responded by developing a written communications action
plan as well as aligning its efforts with BBG to address the results of the OPM’s 2006 Federal
Human Capital Survey.




     Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   97
98   Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                      ABBREVIATIONS



  A/EX                               Bureau of Administration, Executive Office

  A/LM/OPS                           Bureau of Administration, Logistics Management,
                                     Office of Logistics Operations

  A/LM/PMP                           Bureau of Administration, Logistics Management,
                                     Office of Program Management and Policy

  BBG                               Broadcasting Board of Governors

  BPA                               Blanket Purchase Agreement

  CAPPS                             Consolidated American Payroll Processing System

  DCM                               Deputy Chief of Mission

  Department                        Department of State

  Director General                  Director General of the Foreign Service

  DOT                               Department of Transportation

  DS                                Bureau of Diplomatic Security

  DynCorp                           DynCorp International

  ECIE                              Executive Council on Integrity and Efficiency

  Endowment                         National Endowment for Democracy

  FAM                               Foreign Affairs Manual

  FECA                              Federal Employees’ Compensation Act

  FISMA                             Federal Information Security Management Act




Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   99
FSRDF                          Foreign Service Retirement and Disability Fund

FBI                            Federal Bureau of Investigation

FRC                             Florida Regional Center

FSI                             Foreign Service Institute

FSN Pay                         Foreign Service National Payroll System

FY                             Fiscal Year

GFS                            Global Financial Services

HR                             Bureau of Human Resources

H.R.                           House Resolution

HRK                            Harper, Rains, Knight & Company, P.A.

IBB                            International Broadcasting Bureau

IG                             Inspector General

INL                            Bureau of International Narcotics and Law
                               Enforcement Affairs

IREX                           International Research and Exchanges Board

IRM/EX                         Bureau of Information Resource Management,
                               Executive Office

JIPTC                          Jordan International Police Training Center

LGB                            Leonard G. Birnbaum and Company, LLP

MSP                           Mission Strategic Plan

NDAA                          National Defense Authorization Act

NEC                            New Embassy Compound



100       Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
OCB                              Office of Cuba Broadcasting

OEE                              Department of Commerce, Office of Export Control

OIG                              Office of Inspector General

OIG/INV                           Office of Inspector General, Investigations

OIG/ISP                          Office of Inspector General, Inspections

OIG/IT                           Office of Inspector General, Information
                                 Technology

OMB                              Office of Management and Budget

PCIE                             President’s Council on Integrity and Efficiency

PEPFAR                            President’s Emergency Plan for AIDS Relief

PM                               Bureau of Political-Military Affairs

PM/DDTC                          Bureau of Political-Military Affairs, Directorate
                                 of Defense Trade Controls

Pub.L.                           Public Law

RFE/RL                           Radio Free Europe / Radio Liberty

RFMS                             Regional Financial Management System

S.                               Senate Bill

S.A.                             Senate Amendment

S/CRS                            Office of the Coordinator for Reconstruction
                                 and Stabilization

S/ES-EX                          Office of the Executive Director of the Office of
                                 the Secretary

UN                               United Nations



 Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   101
U.S.                          United States

USINT                         U. S. Interests Section

U.S.C.                       United States Code

USAID                        United States Agency for International Development

USIBWC                       International Boundary and Water Commission,
                             United States and Mexico, U.S. Section

VOA                          Voice of America

WHA                          Bureau of Western Hemisphere Affairs




102      Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007
                 INDEX   OF   REPORTING REQUIREMENTS
          INSPECTOR GENERAL ACT            OF     1978,   AS AMENDED




REQUIREMENT SUBJECT                                                    PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                  18-19
Section 5(a)(1) Significant problems, abuses, and deficiencies         23-67, 85-89

Section 5(a)(2) Significant recommendations for corrective action      23-67, 85-89

Section 5(a)(3) Prior significant recommendations unimplemented        79-80, 97

Section 5(a)(4) Matters referred to prosecutive authorities            63-67, 89

Section 5(a)(5) Information or assistance refused                      none

Section 5(a)(6) List of reports issued                                 71-75, 93

Section 5(a)(7) Summaries of significant reports                       23-61, 85-81

Section 5(a)(8) Audit reports–questioned costs                         77, 95

Section 5(a)(9) Audit reports–funds to be put to better use            78, 96

Section 5(a)(10) Prior audit reports unresolved                        none

Section 5(a)(11) Significant revised management decisions              none

Section 5(a)(12) Significant management decisions with which
                 OIG disagreed                                         none
        FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
             of Federal programs and resources
                      hurts everyone.

                   Call the Office of Inspector General
                                     HOTLINE
                                202-647-3320
                            or 1-800-409-9926
                     or e-mail oighotline@state.gov
                   to report illegal or wasteful activities.

                             You may also write to
                          Office of Inspector General
                           U.S. Department of State
                             Post Office Box 9778
                              Arlington, VA 22219

                Please visit our website at oig.state.gov

                       Cables to the Inspector General
                       should be slugged “OIG Channel”
                          to ensure confidentiality.
                                BLE OF CONTENTS




Office of Inspector General Semiannual Report to the Congress, April 1, 2007, to September 30, 2007   103
